No. 20In the

Supreme Court of the United States
PENNYMAC FINANCIAL SERVICES, INC.,
PRIVATE NATIONAL MORTGAGE ACCEPTANCE
COMPANY, LLC., AND PENNYMAC MORTGAGE
INVESTMENT TRUST,
Petitioners,
v.
ERICH HEIDRICH, ERIC KIDD, MARIA ANGELICA
CASTRO, AND JUSTIN ROBERSON,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI
James A. Bowles
Counsel of Record
Michael S. Turner
E. Sean McLoughlin
Warren J. Higgins
Hill, Farrer & Burrill LLP
300 South Grand Avenue
One California Plaza, 37th Floor
Los Angeles, California 90071
(213) 620-0460
jbowles@hillfarrer.com
Counsel for Petitioners
296689

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether the Federal Arbitration Act requires
enforcement of an arbitration agreement as applied to
Fair Labor Standards Act claims where the parties’
agreement requires individualized arbitration, and if so,
whether 28 U.S.C. § 1738 requires a contrary result based
on a state court decision finding an identical agreement
unenforceable under a state law rule that is plainly invalid
under the FAA and federal substantive law interpreting
the FAA.

ii
PARTIES TO THE PROCEEDING BELOW
The case caption contains the names of all parties who
were parties in the Ninth Circuit and District Court. The
State of California is not and never has been a party to
this litigation.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to Rule 29.6 of this Court’s Rules, Petitioners
state that PennyMac Financial Services, Inc. (NYSE:
PFSI) and PennyMac Mortgage Investment Trust (NYSE:
PMT) are publicly held. BlackRock, Inc. currently owns
more than 10% of the shares of both PennyMac Financial
Services, Inc. and PennyMac Mortgage Investment Trust.
Private National Mortgage Acceptance Company, LLC
has two parent companies that each own more than a 10%
membership intererest: PNMAC Holdings, Inc. (not a
party) and Petitioner PennyMac Financial Services, Inc.

iv
RELATED CASES
• Erich Heidrich, et al v. Pennymac Financial
Services, Inc., et al., 2:16-cv-02821-TLN-EFB,
United States District Court for the Eastern
District of California. Order compelling FLSA
claims to arbitration and dismissing state law
claims without prejudice entered July 11, 2018.
• Erich Heidrich, et al v. Pennymac Financial
Services, Inc., et al., 18-16494, United States
Court of Appeals for the Ninth Circuit. Judgment
entered February 7, 2020.
• Richard Smigelski v. PennyMac Financial
Services, Inc., et al., No. 34-2015-00186855-CUOE-GDS, Superior Court of Sacramento County.
Petitions to compel arbitration denied March 3,
2016 and April 22, 2016, motion for reconsideration
denied April 22, 2016.
• Richard Smigelski v. Pennymac Financial
Services, Inc., et al., No. C081958, Court of Appeal
of the State of California, Third Appellate District.
Judgment entered December 19, 2018, rehearing
denied January 9, 2019.
• Richard Smigelski v. Pennymac Financial
Services, Inc., et al., No. S253796, Supreme Court
of California. Petition for review denied April 10,
2019.
• PennyMac Financial Services, Inc., et al. v.
Richard Smigelski, No. 19-72, Supreme Court of

v
the United States. Petition for writ of certiorari
denied October 7, 2019.

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING BELOW  . . . . . . . ii
CORPORATE DISCLOSURE STATEMENT . . . . . .  iii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . .  ix
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . x
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 6
The Smigelski State Court Action . . . . . . . . . . . . . . . . 8
REASONS FOR GRANTING REVIEW  . . . . . . . . . . . 9

vii
Table of Contents
Page
I.

THE
DECISION
BELOW
CONFLICTS WITH THIS COURT’S
ARBITRATION PRECEDENTS AND
WAS INCORRECT  . . . . . . . . . . . . . . . . . . . . . . . 9
A. The FAA Controls The Enforceability
Of Arbitration Agreements Absent
Contrary Congressional Command . . . . . . 10
B. The Court Below Was Wrong To
D i s r e g a r d T h i s C o u r t ’s E p i c
Decision And Its Own Precedents
On A rbitration Agreements That
I nc lude R epr e s ent at i ve A c t ion
Waivers  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
C. The Supremacy Clause Nullifies
Judicially Created State Law Rules That
Conflict With The FAA And This Court’s
Interpretation Of the FAA . . . . . . . . . . . . . 13
D. T h e D e c i s i o n B e l o w R e l i e d
Exclusively On Invalid State Law
Anti-Arbitration Rules That Conflict
With The FAA  . . . . . . . . . . . . . . . . . . . . . . . 15
E. The Federal Statute Relied Upon By
The Ninth Circuit Does Not Indicate A
Congressional Intent To Permit Invalid
State Law Judicial Rules To Override
The Mandate Of The FAA  . . . . . . . . . . . . . 19

viii
Table of Contents
Page
II. T H E I S S U E S I M P L I C A T E D
BY THE DECISION BELOW A RE
EXCEPTIONALLY IMPORTANT. . . . . . . . . . 21
A. The Individual Arbitration Issue Arises
With Great Frequency.  . . . . . . . . . . . . . . . . 21
B. There Is A Square Conflict Between The
Ruling Below And Other Ninth Circuit
Decisions. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
C. This Court’s Intervention Also Will
Make Clear That Lower Cour ts
May Not Invalidate A rbitration
Agreements In Contravention Of The
FAA And This Court’s Precedents . . . . . . 23
D. Summary Reversal Or Remand Would Also
Be Appropriate In This Case.  . . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

ix
TABLE OF APPENDICES
Page
APPENDIX A — MEMORANDUM OF THE
UNITED STATES COURT OF APPEALS
FOR T HE NIN T H CIRCU I T, FILED
FEBRUARY 7, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF CALIFORNIA,
DATED JULY 11, 2018 . . . . . . . . . . . . . . . . . . . . . . . . 5a
APPENDIX C — OPINION OF THE COURT OF
APPEAL OF THE STATE OF CALIFORNIA,
T H I R D A P P EL L A T E DI S T R IC T,
SACRAMENTO, FILED DEEMBER 19, 2018 . . 14a

x
TABLE OF CITED AUTHORITIES
Page
CASES
Allied-Bruce Terminix Cos. v. Dobson,
513 U.S. 265 (1995)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011)  . . . . . . . . . . . . . . . . . . . . . . . passim
CarMax Auto Superstores California, LLC v.
Fowler,
134 S. Ct. 1277, 188 L. Ed. 2d 290 (2014) . . . 20, 21, 25
Citizens Bank v. Alafabco, Inc.,
539 U.S. 52 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
CompuCredit Corp. v. Greenwood,
132 S. Ct. 665 (2012) . . . . . . . . . . . . . . . . . . . 3, 5, 10, 11
Dean Witter Reynolds, Inc. v. Byrd,
470 U.S. 213 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . 10, 23
DIRECTV, Inc. v. Imburgia,
136 S. Ct. 463, 193 L. Ed. 2d 365 (2015) . . . . . . passim
Doctor’s Assocs., Inc. v. Casarotto,
517 U.S. 681 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Epic Systems Corp. v. Lewis,
138 S. Ct. 1612 (2018)  . . . . . . . . . . . . . . . . . . . . . passim

xi
Cited Authorities
Page
Epic Systems v. Lewis,
138 S. Ct 1612, 200 L. Ed. 2d 889 (2018)  . . . . . . . . . . 6
Gilmer v. Interstate / Johnson Lane Corp.,
500 U.S. 20 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Green Tree Fin. Corp. v. Bazzle,
539 U.S. 444 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Hernandez v. DMSI Staffing, LLC.,
79 F. Supp. 3d 1054 (N.D. Cal. 2015), aff’d sub
nom. Hernandez v. DMSI Staffing, LLC,
677 F. App’x 359 (9th Cir. 2017) . . . . . . . . . . . . . . . . .  17
Kindred Nursing Centers Ltd. P’ship v. Clark,
137 S. Ct. 1421, 197 L. Ed. 2d 806 (2017) . . . . . passim
KPMG LLP v. Cocchi,
565 U.S. 18 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Lamps Plus, Inc. v. Varela,
139 S. Ct. 1407 (2019)  . . . . . . . . . . . . . . . . . . . . . . 13, 19
Los Altos El Granada Investors v.
City of Capitola,
583 F.3d 674 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Marmet Health Care Center, Inc. v. Brown,
565 U.S. 530 (2012) . . . . . . . . . . . . . . . . . . . . . . . . 20, 23

xii
Cited Authorities
Page
Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc.,
473 U.S. 614 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Nitro-Lift Technologies, L.L.C. v. Howard,
568 U.S. 17 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . 20, 23
PennyMac Financial Services, Inc., et al. v.
Richard Smigelski,
––– U.S. ––––, 140 S. Ct. 223,
205 L. Ed. 2d 126 (2019) . . . . . . . . . . . . . . . . . . . passim
Perry v. Thomas,
482 U.S. 483 (1987) . . . . . . . . . . . . . . . . . . .  4, 14, 16, 21
Poublon v. C.H. Robinson Co.,
846 F.3d 1251 (9th Cir. 2017) . . . . . . . . . . 12, 13, 16, 22
Preston v. Ferrer,
552 U.S. 346 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Richard Smigelski v. PennyMac Financial
Services, Inc., et al.,
Case No. 34–2015–00186855 . . . . . . . . . . . . . . . . . 8, 12
Ridgeway v. Nabors Completion
& Prod. Serv. Co.,
725 F. Appx 472 (9th Cir. 2018) . . . . . . . . . . . . . . 16, 22
Ritz-Carlton Development Co. v. Narayan,
136 S. Ct. 799 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . . 25

xiii
Cited Authorities
Page
Rodriguez de Quijas v.
Shearson/American Exp., Inc.
490 U.S. 477 (1989)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Sakkab v. Luxottica Retail N. Am., Inc.,
803 F.3d 425 (9th Cir. 2015) . . . . . . . . . . . . . . . . . 16, 22
Schumacher Homes of Circleville, Inc. v.
Spencer,
136 S. Ct. 1157 (2016)  . . . . . . . . . . . . . . . . . . . . . . . . . 25
Shearson / Am. Express Inc. v. McMahon,
482 U.S. 220 (1987) . . . . . . . . . . . . . . . . . . . . . . . .  10, 11
Sonic-Calabasas A, Inc. v. Moreno,
565 U.S. 973 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . 14, 21
Southland Corp. v. Keating,
465 U.S. 1 (1984)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 13
Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp.,
559 U.S. 662 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Swift & Co. v. Wickham,
382 U.S. 111 (1965)  . . . . . . . . . . . . . . . . . . . . . . . . . 4, 13
United States ex rel. Einstein v.
City of New York,
556 U.S. 928 (2009) . . . . . . . . . . . . . . . . . . . . . . . . . . .  17

xiv
Cited Authorities
Page
Valdez v. Terminix Int’l Co. Ltd. P’ship,
681 Fed. Appx. 592 (9th Cir. 2017)  . . . . . . . . 12, 16, 22
Villacres v. ABM Indus. Inc.,
189 Cal. App. 4th 562 (2010) . . . . . . . . . . . . . . . . . . . . 18
Wulfe v. Valero Ref. Co.-Cal.,
641 Fed. Appx. 758 (9th Cir. 2016)  . . . . . . . . 12, 16, 22
STATUTES AND OTHER AUTHORITIES
U.S. Const., art. VI, cl. 2 . . . . . . . . . . . . . . . . . . . . . . . 4, 13
9 U.S.C. § 2  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 10, 15
15 U.S.C. § 1226(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1738  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 19
Cal. Lab. Code § 229  . . . . . . . . . . . . . . . . . . . . . . . . .  14, 16
Cal. Lab. Code § 2699  . . . . . . . . . . . . . . . . . . . . . .  8, 17, 18
Cal. Labor Code § 2699.6 . . . . . . . . . . . . . . . . . . . . . . . . . 18
Matthew J. Goodman, The Private Attorney
General Act: How to Manage the Unmanageable,
56 Santa Clara L. Rev. 413 (2016) . . . . . . . . . . . . . . . 22

1
Petitioners Private National Mortgage Acceptance
Company, LLC (“PennyMac”), PennyMac Financial
Services, Inc. and PennyMac Mortgage Investment Trust
respectfully petition for a writ of certiorari to review the
judgment and memorandum of disposition of the United
States Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW
The opinion of the Ninth Circuit, Appendix A at
1a – 4a, was not selected for publication but is available
at 792 Fed. Appx. 540 and 2020 WL 601894. The order
of the District Court granting PennyMac’s motion to
compel arbitration of the sole federal claim, Appendix B
at 5a – 13a, is not published in the Federal Supplement,
but is available at 2018 WL 3388458. The opinion of the
California Court of Appeal in the related Smigelski state
court action, Appendix C at 14a-49a, is not published but
is available at 2018 WL 6629406.
JURISDICTION
The judgment and memorandum of disposition of the
Court of Appeals was filed February 7, 2020. Appendix A
at 1a. The time for filing this Petition was extended by this
Court’s March 19, 2020 order. This Court’s jurisdiction is
invoked under 28 U.S.C. § 1254(1).
RELEVANT STATUTORY PROVISIONS
Section 2 of the Federal Arbitration Act (“FAA”)
provides:
A written provision in any maritime transaction
or a contract evidencing a transaction involving

2
commerce to settle by arbitration a controversy
thereafter arising out of such contract or
transaction, or the refusal to perform the whole
or any part thereof, or an agreement in writing
to submit to arbitration an existing controversy
arising out of such a contract, transaction,
or refusal, shall be valid, irrevocable, and
enforceable, save upon such grounds as exist
at law or in equity for the revocation of any
contract.
Section 4 of the FAA provides in relevant part:
A party aggrieved by the alleged failure,
neglect, or refusal of another to arbitrate under
a written agreement for arbitration may petition
any United States district court which, save
for such agreement, would have jurisdiction
under title 28, in a civil action or in admiralty
of the subject matter of a suit arising out of the
controversy between the parties, for an order
directing that such arbitration proceed in the
manner provided for in such agreement. . . . The
court shall hear the parties, and upon being
satisfied that the making of the agreement for
arbitration or the failure to comply therewith
is not in issue, the court shall make an order
directing the parties to proceed to arbitration
in accordance with the terms of the agreement.
Section 1738 of Title 28 of the United States Code
provides in pertinent part:
The records and judicial proceedings of any
court of any such State, Territory or Possession,

3
or copies thereof, shall be proved or admitted
in other courts within the United States and its
Territories and Possessions by the attestation
of the clerk and seal of the court annexed, if
a seal exists, together with a certificate of a
judge of the court that the said attestation is
in proper form.
Such Acts, records and judicial proceedings
or copies thereof, so authenticated, shall have
the same full faith and credit in every court
within the United States and its Territories and
Possessions as they have by law or usage in the
courts of such State, Territory or Possession
from which they are taken.
INTRODUCTION
This case is about the enforceability of arbitration
agreements under the FAA. As a matter of federal
substantive law, the FAA establishes a presumption in
favor of enforcing arbitration agreements as written.
See 9 U.S.C. § 2. This presumption may be overcome by
another federal statute, but only if that statute qualifies as
a “congressional command” that is “contrary” to the FAA’s
enforcement mandate. CompuCredit Corp. v. Greenwood,
132 S. Ct. 665, 669 (2012). As this Court held in Epic
Systems Corp. v. Lewis, 138 S. Ct. 1612, 1620 (2018), the
FAA requires enforcement of an agreement to arbitrate
putative collective action claims under the Fair Labor
Standards Act (“FLSA”), even where the arbitration
agreement “specified individualized arbitration.” The
Supremacy Clause mandates that this Court’s definitive
interpretation of the FAA in Epic cannot be subverted

4
by a judicially created state law rule that conflicts with
the FAA. Art. VI, cl. 2; Swift & Co. v. Wickham, 382 U.S.
111, 120 (1965); Southland Corp. v. Keating, 465 U.S. 1, 12
(1984); Perry v. Thomas, 482 U.S. 483, 490 (1987).
In this case, the Ninth Circuit reversed a District
Court order compelling arbitration of Respondents’
FLSA claims. The District Court compelled arbitration
of the FLSA claims based on a determination that
Epic required enforcement of the parties’ arbitration
agreement, notwithstanding the agreement’s specification
of individualized arbitration (“by agreeing to use
arbitration to resolve my dispute, both PennyMac and
I agree to forego any right we each may have had to a
jury trial on issues covered by the MAP, and forego any
right to bring claims on a representative or class basis.”)
Appendix A, 2a; Appendix B, 7a-12a. The District Court
properly applied the FAA and followed Epic. The Ninth
Circuit was wrong to reverse.
The Ninth Circuit’s error was to give preclusive effect
to a California appellate court decision in a related case
holding that the same agreement was unenforceable in
toto as applied to state law claims, based upon a state law
rule disfavoring waivers of class and representative claims
in arbitration agreements. The Ninth Circuit incorrectly
invoked the Full Faith and Credit Clause at the expense
of (and without discussing) the Supremacy Clause, and
disobeyed this Court’s clear holding in Epic in favor of an
invalid California rule of law that is contrary to both the
FAA and existing Ninth Circuit precedent. This Court’s
intervention is required to correct the mistake in this case
and to prevent California’s judicial antagonism toward
individualized arbitration from infecting the federal

5
courts within the Ninth Circuit and from affecting the
arbitrability of federal FLSA claims in other cases.
State legislatures and courts have a history of
attempting to evade the FAA, and California has led the
field. This Court has repeatedly rebuffed California’s antiarbitration agenda and has rebuked other State courts
who failed to heed this Court’s interpretation of the FAA
as required by the Supremacy Clause. The primacy of
this Court’s arbitration jurisprudence has been a bulwark
against a rising tide of state law devices and doctrines
intended to disfavor arbitration. And the obligation of
federal courts to follow this Court’s precedent has ensured
uniform rejection of state law based attacks in federal
courts on otherwise enforceable arbitration agreements.
In this case, however, the Ninth Circuit Court of
Appeals improperly allowed California state law to
subvert the FAA and the Supremacy Clause through
an erroneous application of the Full Faith and Credit
Clause and its enabling statute. But Section 1738 lacks
the requisite indicia of Congressional intent to satisfy the
CompuCredit test, and therefore the Ninth Circuit was
wrong to give preclusive effect to an invalid state law rule
that plainly conflicts with and is preempted by the FAA.
The Ninth Circuit was wrong to rely on that invalid state
law rule to reach a result that is the opposite of what this
Court’s decisions and the Ninth Circuit’s own precedents
require on the exact issues posed.
This case presents the straightforward question
whether the FA A preempts a state-law rule that
selectively disfavors arbitration agreements that require
individualized arbitration and, assuming it does, whether

6
such an invalid state law rule can nevertheless trump
this Court’s specific holding in Epic that arbitration
agreements precluding representative or collective
proceedings must be enforced as written against FLSA
claims.
The question presented is important, because
employees and employers throughout California routinely
agree to arbitrate their employment-related disputes at
the outset of the employment relationship. The state law
rule given effect by the Ninth Circuit in this case will
invalidate countless arbitration agreements covered by
the FAA in California, even when Epic dictates that those
agreements must be enforced in FLSA cases. This Court’s
review is therefore essential.
Given the failure of the Ninth Circuit to heed this
Court’s clear and repeated instruction that the FAA does
not permit state law to prohibit arbitration of particular
claims and requires arbitration agreements to be placed on
equal footing with other contracts, the Court may wish to
consider summary reversal or vacatur for reconsideration
in light of Epic Systems v. Lewis, 138 S.Ct 1612, 1632,
200 L.Ed. 2d 889 (2018), Kindred Nursing Centers Ltd.
P’ship v. Clark, 137 S. Ct. 1421, 1427, 197 L. Ed. 2d 806
(2017), DIRECTV, Inc. v. Imburgia, 136 S.Ct. 463, 469471 (2015) and AT&T Mobility LLC v. Concepcion, 563
U.S. 333 (2011).
STATEMENT OF THE CASE
Petitioners are multi-state companies headquarted
in California and engaged in the business of mortgage
origination and servicing throughout the United States.

7
Respondents are three former California employees
and one former Texas employee of Petitioner Private
Nat iona l Mor tg age Accept a nce Compa ny, LLC
(“PennyMac”). App. B, 5a-6a. Respondents each signed
identical arbitration agreements during 2013 and 2014,
agreeing that “final and binding arbitration will be the
sole and exclusive remedy for any [cmployment] claim or
dispute . . .” with PennyMac. App. B, 6a. The agreements
included a waiver of “any right to bring claims on a
representative or class basis” and a severance provision
stating that if any provision of the accompanying
arbitration policy “is found unenforceable, that provision
may be severed without affecting this agreement to
arbitrate.” App. B, 7a; App. C, 16a.
On November 28, 2016, Respondents Heidrich, Kidd
and Castro filed an action in the District Court against
PennyMac and other Petitioners alleging putative
collective action claims under the FLSA and alleging
putative class action claims under California’s Labor
Code. On January 9, 2017 Respondents filed an amended
complaint prematurely attempting to plead a claim for
civil penalties under California Labor Code section 2699
(the Labor Code Private Attorney General Act [“PAGA”]).
In response, Petitioners moved to compel arbitration
of the sole federal claim – the FLSA claim – and asked the
District Court to dismiss the state law claims based on
the resulting absence of federal jurisdiction. App. B, 5a6a. While the motion was pending, Respondent Roberson
filed a consent to join the FLSA claim.
The District Court granted Petitioners’ motion to
compel arbitration of the FLSA claim and declined to

8
exercise supplemental jurisdiction over Respondents’
state law claims (including the PAGA claim), all of which
it dismissed without prejudice. App. B, 13a. The District
Court stated that this result was required by Epic Systems
Corp. v. Lewis, 138 S. Sct. 1612, 1632 (2018), rejecting the
argument that the entire agreement was unenforceable
because the representative waiver language within the
agreement was unlawful under California law.
Respondents appealed and the Ninth Circuit reversed
the District Court. App. A, 2a-4a. This Petition followed.
The Smigelski State Court Action
On November 17, 2015, before the Heidrich federal
action was filed, another former PennyMac employee,
Richard Smigelski, filed a nearly identical action against
Petitioners in Sacramento Superior Court, entitled
Richard Smigelski v. PennyMac Financial Services, Inc.,
et al., Case No. 34–2015–00186855 (Smigelski). ER 4547, 49-58, 60-62, 64-66. The Smigelski case was filed by
Respondents’ counsel, Chris Baker, who remains counsel
of record in both actions.
Smigelski originally alleged only a single claim for
civil penalties under PAGA (Cal. Lab. Code § 2699).
Smigelski did not allege an FLSA claim. In response,
PennyMac filed a petition to compel arbitration and stay
the action. The trial court denied the petition, finding
that the arbitration agreement was not enforceable as
applied to the PAGA claim. Armed with the ruling that
his arbitration agreement was unenforceable, Smigelski
filed an amended complaint adding additional individual
and putative class claims under California’s Labor Code

9
and seeking unpaid wages, statutory penalties, restitution,
and damages, in addition to civil penalties under PAGA.
PennyMac responded to the amended complaint with
a motion for reconsideration and a second petition to
compel arbitration. The trial court denied the motion for
reconsideration and the second petition.
PennyMac appealed. On December 19, 2018 the Court
of Appeal affirmed. App. C, 14a-15a. On April 10, 2019, the
California Supreme Court summarily denied PennyMac’s
Petition for Review and this Court subsequently denied
PennyMac’s Petition for Writ of Certiorari. PennyMac
Financial Services, Inc., et al. v. Richard Smigelski ,
––– U.S. ––––, 140 S. Ct. 223, 205 L.Ed.2d 126 (2019).
REASONS FOR GRANTING REVIEW
I.

THE DECISION BELOW CONFLICTS WITH
THIS COURT’S ARBITRATION PRECEDENTS
AND WAS INCORRECT

This Court’s intervention is needed because the Ninth
Circuit’s decision was wrong on the merits. The decision
of the Ninth Circuit ignores the Supremacy Clause and
defies this Court’s clear and repeated instruction that the
FAA preempts state-law rules that discriminate against
arbitration agreements. By prohibiting outright the
enforcement of Respondents’ agreements to individually
arbitrate their FLSA claims, the decision below
disregarded this Court’s definitive interpretation of the
FAA. In doing so, the Ninth Circuit created a clear conflict
between an invalid state law rule and substantive federal
law under the FAA, and also created an unnecessary but
implicit conflict between the Supremacy Clause and the
Full Faith and Credit Clause.

10
A.

The FAA Controls The Enforceability Of
Arbitration Agreements Absent Contrary
Congressional Command

The FA A is “[t]he background law governing”
questions relating to the enforcement of an arbitration
provision, even when other federal statutes are at issue.
CompuCredit, 132 S. Ct. at 668. The type of arbitration
“envisioned by the FA A” is “bilateral” (individual)
arbitration. Concepcion, 563 U.S. at 348, 351.
Under the FAA, the default rule is enforceability: “A
written provision *** to settle by arbitration a controversy
*** shall be valid, irrevocable, and enforceable, save
upon such grounds as exist at law or in equity for the
revocation of any contract.” 9 U.S.C. § 2. Accordingly,
“[t]he burden is on the party opposing arbitration ***
to show that Congress intended to preclude a waiver
of judicial remedies for the statutory rights at issue.”
Shearson / Am. Express Inc. v. McMahon, 482 U.S.
220, 227 (1987). That is why, for decades, this Court has
consistently upheld the FAA’s policy favoring enforcement
of arbitration agreements as written. See, e.g., DIRECTV,
Inc. v. Imburgia, 136 S. Ct. 463 (2015); Am. Express Co.
v. Italian Colors Rest., 570 U.S. 228 (2013) 133 S. Ct. 2304;
CompuCredit, 132 S. Ct. 665; Concepcion, 563 U.S. 333;
Stolt-Nielsen S.A. v. AnimalFeeds Int’l Corp., 559 U.S.
662 (2010); Gilmer v. Interstate / Johnson Lane Corp.,
500 U.S. 20 (1991); McMahon, 482 U.S. 220; Mitsubishi
Motors Corp. v. Soler Chrysler-Plymouth, Inc., 473 U.S.
614 (1985); Dean Witter Reynolds, Inc. v. Byrd, 470 U.S.
213 (1985).
Consistent with the strong federal policy favoring
arbitration, the FA A “requires courts to enforce

11
agreements to arbitrate according to their terms [,]
*** even when the claims at issue are federal statutory
claims, unless the FAA’s mandate has been ‘overridden
by a contrary congressional command.’ ” CompuCredit,
132 S. Ct. at 669 (quoting McMahon, 482 U.S. at 226). This
contrary congressional command cannot be “obtuse,” but
rather must indicate Congress’s contrary intent with some
“clarity.” CompuCredit, 132 S. Ct. at 672. And, as stated,
the directive must be “congressional,” id. at 669 - not
administrative or judicial.
With respect to federal claims under the FLSA, the
FAA requires enforcement of an employee’s arbitration
agreement even though it requires individualized
proceedings and that prohibits class, collective or
representative proceedings. Epic, 138 S. Ct. at 1621-1632.
B. The Court Below Was Wrong To Disregard This
Court’s Epic Decision And Its Own Precedents
On Arbitration Agreements That Include
Representative Action Waivers
The Ninth Circuit is obligated to follow the decisions
of this Court, as well as its own precedents, when they
have direct application to the relevant issues. Rodriguez
de Quijas v. Shearson/American Exp., Inc. 490 U.S. 477,
484 (1989).
The Ninth Circuit reversed the District Court’s order
compelling Respondent’s FLSA claim to arbitration
because it found that the parties’ arbitration agreement
was wholly unenforceable, due to its inclusion of a class
and representative action waiver that would be unlawful
under California law if applied to a PAGA claim for civil

12
penalties, and based on a finding that the waiver was
inseverable. Appendix A, 2a-3a. Both of these holdings,
based exclusively on the Smigelski state court ruling,
conflict directly with existing and controlling federal
precedent.
First, assuming the parties agreement included
a PAGA waiver and assuming that Petitioner sought
to enforce that waiver against Respondents’ PAGA
claim in the District Court (which PennyMac did not
do), existing Ninth Circuit precedent holds that PAGA
waivers that would be unenforceable under California law
cannot render the balance of an arbitration agreement
unenforceable under the FAA. See Wulfe v. Valero Ref.
Co.-Cal., 641 Fed. Appx. 758, 760 (9th Cir. 2016); Valdez
v. Terminix Int’l Co. Ltd. P’ship, 681 Fed. Appx. 592, 594
(9th Cir. 2017); Poublon v. C.H. Robinson Co., 846 F.3d
1251, 1273 (9th Cir. 2017) (“the waiver of representative
claims is unenforceable to the extent it prevents an
employee from bringing a PAGA action. This clause
can be limited without affecting the remainder of the
agreement.”) (emphasis added). Thus, the decision below
was wrong to allow an invalid California rule to dictate
a result directly contrary to existing Ninth Circuit
precedent on the precise issue.
Second, the Ninth Circuit should simply have followed
Epic and affirmed the District Court. The specification
of individualized arbitration proceedings in the parties’
agreement is, as applied to FLSA claims, precisely the
type of arbitration agreement that this Court found
enforceable under the FAA. Epic, supra, 138 S. Ct. at
1619-1620. And this Court’s clear instruction is that
attempting to contractually preserve the traditional,

13
bilateral nature of arbitration against the potential
imposition of fundamentally incompatible class or
collective action procedures is a lawful purpose. Lamps
Plus, Inc. v. Varela, 139 S. Ct. 1407, 1416-1417 (2019)
Epic, supra; Concepcion, supra, 563 U.S. at 336; see also
Poublon, 846 F.3d at 1264.
C.

The Supremacy Clause Nullifies Judicially
Created State Law Rules That Conflict With
The FAA And This Court’s Interpretation Of
the FAA

The Supremacy Clause prov ides that “[t]his
Constitution, and the Laws of the United States which
shall be made in Pursuance thereof ... shall be the supreme
Law of the Land; and the Judges in every State shall be
bound thereby, any Thing in the Constitution or Laws of
any State to the Contrary notwithstanding.” Art. VI, cl.
2. Thus, a valid federal law is substantively superior to
a state law; “if a state measure conflicts with a federal
requirement, the state provision must give way.” Swift &
Co. v. Wickham, 382 U.S. 111, 120 (1965).
This Court’s decisions and federal case law that has
developed under the FAA constitute a body of substantive
federal law on arbitration and the enforceability of
particular types of arbitration agreements. Southland
Corp. v. Keating, 465 U.S. 1, 12 (1984). The FAA and the
federal substantive law thereunder preempt and displace
contrary state law restrictions, whether imposed by state
legislatures or state courts. Id. at 10; Perry v. Thomas,
482 U.S. 483, 490 (1987); Green Tree Fin. Corp. v. Bazzle,
539 U.S. 444 (2003).

14
As a result, state law rules attempting to preclude
arbitration of California Labor Code claims have without
exception been invalidated under the FAA. Perry v.
Thomas, 482 U.S. 483, 490 (1987)(Labor Code § 229,
restricting arbitration of wage disputes, preempted and
invalidated by FAA); Preston, supra, 522 U.S. at 359360 (FAA supersedes the California Talent Agencies
Act, which vests exclusive jurisdiction over disputes
with Labor Commissioner); Sonic-Calabasas, supra,
565 U.S. 973 (2011)(vacating California rule requiring
Labor Commissioner administrative hearing before
arbitration of a wage dispute covered by arbitration
agreement). The same fate befell California’s attempts
to prohibit enforcement of class action waivers in
arbitration agreements. Concepcion, supra, 563 U.S. at
352; DIRECTV, Inc. v. Imburgia, supra, 136 S.Ct. at 471.
“Congress precluded States from singling out
arbitration provisions for suspect status” (Casarotto,
supra, 517 U.S. at 687) or from invalidating arbitration
provisions through state-law rules that “apply only to
arbitration or that derive their meaning from the fact
that an agreement to arbitrate is at issue.” Concepcion,
supra, 563 U.S. at 339; see also Imburgia, supra, 136 S.
Ct. at 469; Perry, 482 U.S. at 492 n.9. “When state law
prohibits outright the arbitration of a particular type of
claim, the analysis is straightforward: The conflicting rule
is displaced by the FAA.” Concepcion, supra, 563 U.S. at
341 (citing Preston v. Ferrer, 552 U.S. 346, 353 (2008)). The
state law rules by the Smigelski decision plainly contradict
the FAA and are therefore invalid.

15
D.

The Decision Below Relied Exclusively On
Invalid State Law Anti-Arbitration Rules That
Conflict With The FAA.

In this case, the state law rule that was given
preclusive effect by the Ninth Circuit prohibits outright
the arbitration of a particular type of claim – PAGA claims
for civil penalties – any time the agreement to arbitrate
was entered into by the parties before the employee
satisfied the minimal administrative notice requirements
of PAGA. App. C, 38a-39a.
By drawing a red circle around Labor Code section
2699 claims and declaring them exempt from arbitration
in all cases involving pre-dispute arbitration agreements,
the Smigelski decision stated a rule that is plainly in
conf lict with and therefore preempted by the FA A
as interpreted by Concepcion. A state law rule flatly
prohibiting enforcement of pre-dispute arbitration
agreements involving California Labor Code claims filed
and prosecuted solely by the signatory employee against
the signatory employer cannot be squared with the plain
terms and manifest purpose of the FAA.1 Like California
1. The Smigelski rule, which singles out pre-dispute agreements
to arbitrate PAGA claims for unequal treatment, contravenes the text
of FAA § 2: “A written provision in * * * a contract evidencing a
transaction involving commerce to settle by arbitration a controversy
thereafter arising out of such contract * * * or an agreement in
writing to submit to arbitration an existing controversy arising out
of such a contract * * * shall be valid, irrevocable, and enforceable,
save upon such grounds as exist at law or in equity for the revocation
of any contract.” 9 U.S.C. § 2 (emphasis added). By its terms, then,
the FAA requires the enforcement of both pre-dispute and postdispute arbitration agreements and mandates that they be treated

16
Labor Code section 229 prohibiting arbitration of any
claim for wages (which this Court held preempted by the
FAA 30 years ago in Perry, supra, 482 U.S. at 492), the
Smigelski rule is an outright prohibition on arbitration of
a particular type of Labor Code claim and is thus a nullity
in any case governed by the FAA.
By requiring that the State expressly authorize the
plaintiff-employee to consent to arbitration – even though
California law does not impose that requirement for other
types of contracts – the Smigelski decision also flatly
violated the FAA’s mandate that courts must “place []
arbitration agreements on equal footing with all other
contracts.” DIRECTV, Inc. v. Imburgia, 136 S. Ct. 463,
468, 193 L. Ed. 2d 365 (2015); see also Doctor’s Assocs.,
Inc. v. Casarotto, 517 U.S. 681, 686-87 (1996); Perry, 482
U.S. at 492 n. 9.
Indeed, an unbroken line of decisions by the Ninth
Circuit itself holds that the FAA requires exactly the
opposite result. These decisions hold that PAGA claims
are subject to arbitration under pre-dispute agreements
between the actual parties to the lawsuit, notwithstanding
the State’s interest in its share of any monetary penalties
recovered. See Ridgeway v. Nabors Completion & Prod.
Serv. Co., 725 F. Appx 472, 474 (9 th Cir. 2018); Sakkab
v. Luxottica Retail N. Am., Inc., 803 F.3d 425, 434 (9th
Cir. 2015); Wulfe v. Valero Ref. Co.-Cal., 641 Fed. Appx.
758, 760 (9 th Cir. 2016); Valdez v. Terminix Int’l Co. Ltd.
P’ship, 681 F. App’x 592, 594 (9th Cir. 2017); Poublon v.
equally. If Congress wanted to make only post-dispute arbitration
agreements enforceable under the FAA, it would have done so. See
15 U.S.C. § 1226(a)(2).

17
C.H. Robinson Co., 846 F.3d 1251, 1273 (9 th Cir. 2017);
Hernandez v. DMSI Staffing, LLC., 79 F. Supp. 3d 1054,
1067 (N.D. Cal. 2015), aff’d sub nom. Hernandez v. DMSI
Staffing, LLC, 677 F. App’x 359 (9th Cir. 2017).
The Smigelski decision attempted to justify its antiarbitration rule as one of general applicability based on
the wrongheaded notion that because the State has an
interest in every PAGA claim for monetary penalties, it
is the “party” to the PAGA action and the named plaintiff
is not. This rationale relies on a double fiction: (1) that the
State, despite being entirely absent from the proceeding
and having no authority to intervene, is a party; and (2)
that the plaintiff, despite statutory authorization to sue in
his own name and to prosecute or settle the PAGA claims
without any State involvement, is nevertheless acting on
the state’s behalf and therefore his private agreement to
arbitrate is inapplicable absent State consent. 2
2. The false analogy often drawn by California courts is that
PAGA claims are “a kind of qui tam” claim. This Court has held that
in a federal qui tam action the named plaintiff, not the government,
is the party plaintiff and the government is not a party unless the
government has intervened in the action. United States ex rel.
Einstein v. City of New York, 556 U.S. 928, 933 (2009). Furthermore,
comparison of California’s actual qui tam statute, Government Code
section 12652, to Labor Code section 2699, shows that PAGA claims
bear no resemblance to qui tam actions, either in terms of the injured
party whose rights were violated or the continuing right of the
State or its subdivisions to control the litigation or any settlement,
even in cases where they do not intervene at the outset. California
Government Code §12652 authorizes qui tam actions in which the
State has been defrauded and monetarily injured, and authorizes
the State to intervene and control the litigation or its disposition at
all stages. PAGA authorizes additional penalties that are derivative
of and based solely upon Labor Code violations suffered by the

18
But Smigelski’s reasoning does not apply to any
agreement other than an agreement to arbitrate. For
example, California law permits private plaintiffs to enter
into agreements to settle and release allegations of Labor
Code violations before any PAGA lawsuit is filed. Those
agreements are enforced to preclude derivative PAGA
claims for penalties entirely, without regard to whether
the State signed the settlement agreement or otherwise
consented to the settlement and release. Villacres v. ABM
Indus. Inc., 189 Cal. App. 4th 562, 591(2010). Indeed, PAGA
itself contemplates that private plaintiffs may choose to
never pursue claims for PAGA penalties (in which case the
State’s interest is extinguished by the employee’s inaction)
or may settle or dismiss PAGA actions without obtaining
the consent of the State. Cal. Lab. Code § 2699. The
Smigelski rule and the decision below selectively disfavor
only agreements to submit PAGA claims to arbitration.
Recently, California’s Legislature made a distinct
subset of contracts in California expressly enforceable
to waive PAGA penalty claims without requiring State
consent – collective bargaining agreements in the
construction industry that provide for binding arbitration
of any underlying Labor Code violations. Cal. Labor Code
§ 2699.6.
Such obvious inconsistency has led this Court to
conclude that similar judicial rules target arbitration
agreements. See, e.g. Kindred Nursing Centers, 137 S.Ct.
at 1427 (holding that FAA preempted Kentucky Supreme
Court’s special rule requiring express authorization by
employee, and once the employee obtains standing to assert a PAGA
claim, the State lacks any ability to intervene or control the litigation.

19
principal of agent to enter into arbitration agreements
but not other contracts) ; Imburgia 136 S. Ct. at
470-71(holding that the FAA preempted the California
Court of Appeal’s interpretation of the term “law of your
state” because “nothing in the [state court’s] reasoning
suggest[ed]” that a court in that state “would reach the
same interpretation of ‘law of your state’ in any context
other than arbitration.”).
The Smigelski decision also impermissibly and
uniquely disfavored arbitration in another way. Like
the nonsensical interpretation of contractual language
struck down by this Court in Imburgia (Imburgia, supra,
136 S.Ct. at 469) and Lamps Plus (Lamps Plus, supra,
139 S. Ct. at 1418-1419), the backward interpretation of
the severance language within PennyMac’s arbitration
agreement employed by the Smigelski court in order to
render the entire agreement unenforceable is plainly preempted by the FAA. App. C, 19a, 39a-45a.
The Ninth Circuit was wrong to rely on such plainly
invalid state law rules in a case governed by the FAA,
and should never have given them effect in violation of the
Supremacy Clause and federal precedent under the FAA.
E. The Federal Statute Relied Upon By The Ninth
Circuit Does Not Indicate A Congressional
Intent To Permit Invalid State Law Judicial
Rules To Override The Mandate Of The FAA.
The court of appeals below relied on 28 U.S.C. section
1738, the statute implementing the Full Faith and Credit
Clause, to override the FAA’s mandate and this Court’s
definitive interpretation in Epic of what that mandate

20
requires in an FLSA case where the employee has agreed
to waive class, collective and representative proceedings
in arbitration.
Section 173 8 , however, fails to mani fest any
Congressional intent to override the FAA, or to displace
the normal operation of the Supremacy Clause when the
FAA and this Court’s interpretation of the FAA invalidate
or displace contrary state law rules. Nor does this Court’s
jurisprudence under the Full Faith and Credit Clause
support the Ninth Circuit’s erroneous application of
invalid state law to override Epic. Petitioners are unaware
of any decision of this Court holding that the Full Faith
and Credit Clause requires a federal court to refuse
enforcement under the FAA of an arbitration agreement
that is enforceable under this Court’s precedent but that
is unenforceable under a rule of state law that conflicts
with the FAA and this Court’s interpretation of the FAA.
The Ninth Circuit itself, however, has recognized that in
circumstances where substantive federal law governs, a
federal court is not obligated to give preclusive effect to
a state judicial decision that is contrary to what federal
law requires. See e.g., Los Altos El Granada Investors v.
City of Capitola, 583 F.3d 674 (2009).
The decision below incorrectly gave preclusive effect
to the latest in a long line of state court decisions seeking
to evade this Court’s precedents on arbitration. See, e.g.,
Kindred Nursing Centers Ltd. P’ship, 137 S. Ct. at 1427;
Imburgia, 136 S.Ct. 463; CarMax Auto Superstores
California, LLC v. Fowler, 134 S.Ct. 1277, 188 L.Ed.2d
290 (2014); Nitro-Lift Technologies, L.L.C. v. Howard, 568
U.S. 17, 20 (2012) (per curiam); Marmet, 565 U.S. 530, 533
(2012)(per curiam). California leads the pack in attempts
to circumvent the FAA with state law rules disfavoring

21
arbitration. DIRECTV, Inc. v. Imburgia, 136 S. Ct.
463, 468 (2015), CarMax Auto Superstores California,
LLC v. Fowler, 134 S.Ct. 1277, 188 L.Ed.2d 290 (2014),
Sonic-Calabasas A, Inc. v. Moreno, 565 U.S. 973 (2011)
and Perry, supra, 482 U.S. at 489 n. 2. While such plain
disobedience may escape this Court’s review when arises
from state court proceedings, it should not be ignored
when a federal Court of Appeals invokes the invalid state
law rules to overturn a clear and correct application of
this Court’s interpretation of the FAA.
II. THE ISSUES IMPLICATED BY THE DECISION
BELOW ARE EXCEPTIONALLY IMPORTANT.
A.

The Individual Arbitration Issue Arises With
Great Frequency.

California is the most populous state, is a hub to
numerous major U.S. and global industries, and is home
to approximately 12% of all employees in the United
States. 3 Many of those employees agree to arbitration
of their employment-related disputes at the outset of
their employment, before any dispute has arisen. If the
Smigelski rule must be given effect by District Courts,
then employment arbitration agreements under which
California employers and employees agreed to individually
arbitrate cannot be enforced in any case to which a PAGA
claim is appended.
3. As of May 2019, California had an employed workforce of
18,653,000. Bureau of Labor Statistics, California, https://www.
bls.gov/eag/eag.ca.htm. At that time, the United States employed
workforce was 156,758,000. Bureau of Labor Statistics, Employment
status of the civilian population by sex and age, https://www.bls.gov/
news.release/empsit.t01.htm.

22
Enterprising plaintiffs and their attorneys are quickly
taking advantage of this new loophole, using it to shirk
their contractual obligation to arbitrate employment
claims. California courts’ refusal to enforce pre-dispute
agreements to arbitrate PAGA claims has caused the
number of PAGA actions to skyrocket. “Annual PAGA
filings have increased over 200 percent in the last five
years, and over 400 percent since 2004. The fact that
PAGA claims cannot be waived by agreements to arbitrate
contributes heavily to the prevalence of these suits.”
Matthew J. Goodman, The Private Attorney General
Act: How to Manage the Unmanageable, 56 Santa Clara
L. Rev. 413, 415 (2016) (citation omitted).
B. There Is A Square Conflict Between The Ruling
Below And Other Ninth Circuit Decisions.
As explained above, the Ninth Circuit has held in
other cases that pursuant to the California Supreme
Court’s interpretation of California law, PAGA claims
are not exempt from arbitration, but instead are subject
to arbitration if the parties’ agreement allows pursuit of
PAGA’s civil penalties, and also has held that the presence
of an unenforceable PAGA waiver will not render an
arbitration agreement wholly unenforceable. Sakkab,
supra, 803 F.3d at 434; see also Ridgeway v. Nabors
Completion & Products Serv. Co., 725 F. Appx 472, 474 (9th
Cir. 2018); Poublon, supra, 846 F.3d at 1273 (“the waiver
of representative claims is unenforceable to the extent it
prevents an employee from bringing a PAGA action. This
clause can be limited without affecting the remainder
of the agreement.”); Valdez, supra, 681 F. App’x at 594;
Wulfe, supra, 641 Fed. Appx. at 760.

23
The circumstances here are therefore similar to those
that warranted this Court’s review in Imburgia. See
136 S. Ct. at 467-48 (observing that the petition granted
“not[ed] that the Ninth Circuit had reached the opposite
conclusion on precisely the same interpretive question
decided by the California Court of Appeal”). This Court’s
intervention is needed in order to ensure that when
California courts abdicate their responsibility to follow the
FAA, such insubordination does not thwart the intention
of Congress and the instructions of this Court through an
inappropriate application of Section 1738.
C.

This Court’s Intervention Also Will Make
Clear That Lower Courts May Not Invalidate
Arbitration Agreements In Contravention Of
The FAA And This Court’s Precedents.

This Court repeatedly has intervened by granting
summary reversals when state courts have ignored or
refused to apply controlling precedents interpreting
the FAA. Nitro-Lift, supra, 568 U.S. 17 at 501; accord
Marmet Health Care Center, Inc. v. Brown, 565 U.S. 530
at 532 (2012) (the Court summarily vacated and remanded
the lower court’s decision, because “The West Virginia
court’s interpretation of the FAA was both incorrect and
inconsistent with clear instruction in the precedents of
this Court.”); KPMG LLP v. Cocchi, 565 U.S. 18, 22 (2011)
(per curiam) (the Court summarily vacated the Florida
District Court of Appeal’s refusal to compel arbitration
as “fail[ing] to give effect to the plain meaning of the
[Federal Arbitration] Act and to the holding of Dean
Witter [Reynolds, Inc. v. Byrd, 470 U.S. 213 (1985)].”);
Citizens Bank v. Alafabco, Inc., 539 U.S. 52, 56-58 (2003)
(per curiam) (the Court summarily reversed the Alabama

24
Supreme Court’s refusal to apply the FAA based on an
“improperly cramped view of Congress’ Commerce Clause
power” that was inconsistent with this Court’s decision
in Allied-Bruce Terminix Cos. v. Dobson, 513 U.S. 265
(1995)).
This Court also recently reversed the Kentucky
Supreme Court, which had imposed a state law rule
prohibiting authorized agents from binding their principals
to arbitration agreements, despite broad authority under
Kentucky law to enter into all manner of other contracts.
Kindred Nursing Centers Ltd. P’ship v. Clark, 137 S.
Ct. 1421, 1427, 197 L. Ed. 2d 806 (2017) (“Such a rule is
too tailor-made to arbitration agreements—subjecting
them, by virtue of their defining trait, to uncommon
barriers—to survive the FAA’s edict against singling out
those contracts for disfavored treatment.”). As this Court
held in that case, “[a] rule selectively finding arbitration
contracts invalid because improperly formed fares no
better under the Act than a rule selectively refusing to
enforce those agreements once properly made.” Id. at
1428. The Smigelski rule given effect by the Ninth Circuit,
selectively finding pre-dispute agreements invalid in
PAGA cases should fare no better.
This Court observed in Epic that: “Just as judicial
antagonism toward arbitration before the Arbitration
Act’s enactment “manifested itself in a great variety of
devices and formulas declaring arbitration against public
policy,” Concepcion teaches that we must be alert to
new devices and formulas that would achieve much the
same result today.” 138 S.Ct. at 1623. States deputizing
private plaintiffs as nominal “private attorneys general”
and requiring State “consent” to arbitration agreements
previously agreed to by those private parties is precisely

25
such a device. By reversing the Ninth Circuit decision
in this case, the Court can restore the District Court’s
proper application of Epic and signal its disapproval of
California’s conflicting rule. This case is an ideal vehicle
for doing so. It arises out of federal court, so it does not
implicate the views expressed by one member of this Court
that the FAA does not apply in state court proceedings.
D.

Summary Reversal Or Remand Would Also Be
Appropriate In This Case.

Given the clear conflict between the decision below and
this Court’s precedents, the Court may wish to consider
summarily reversing the decision below.
If the Court believes that neither plenary review nor
summary reversal is warranted, it may wish to consider
granting, vacating, and remanding the decision below
in light of Epic, Kindred Nursing Centers, Imburgia,
and Concepcion. This Court has already taken that
course in other cases presenting a failure or refusal to
adhere to this Court’s precedents interpreting the FAA.
See Schumacher Homes of Circleville, Inc. v. Spencer,
136 S. Ct. 1157 (2016); Ritz-Carlton Development Co. v.
Narayan, 136 S. Ct. 799 (2016); CarMax Auto Superstores
California, LLC v. Fowler, 134 S.Ct. 1277, 188 L.Ed.2d
290 (2014). Doing the same here would remind the Ninth
Circuit (and California courts) that Epic is the conclusive
interpretation of the FAA and what it requires in FLSA
cases that involve agreements to individually arbitrate,
and it may not be ignored based on state law rules that
prohibit arbitration of a particular type of state law claim
or otherwise disfavor arbitration.

26
CONCLUSION
The petition for a writ of certiorari should be granted.
The Court may wish to consider summary reversal, or
vacatur for reconsideration in light of Epic, Kindred
Nursing Centers, Imburgia, and Concepcion.
			Respectfully submitted,
James A. Bowles
Counsel of Record
Michael S. Turner
E. Sean McLoughlin
Warren J. Higgins
Hill, Farrer & Burrill LLP
300 South Grand Avenue
One California Plaza, 37th Floor
Los Angeles, California 90071
(213) 620-0460
jbowles@hillfarrer.com
Counsel for Petitioners

APPENDIX

1a
A
APPENDIX A —Appendix
MEMORANDUM
OF THE
UNITED STATES COURT OF APPEALS FOR THE
NINTH CIRCUIT, FILED FEBRUARY 7, 2020
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16494
D.C. No. 2:16-cv-02821-TLN-EFB
ERICH HEIDRICH; et al.,
Plaintiffs-Appellants,
v.
PENNYMAC FINANCIAL SERVICES, INC.; et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Eastern District of California.
Troy L. Nunley, District Judge, Presiding.
January 21, 2020, Argued and Submitted,
San Francisco, California;
February 7, 2020, Filed
Before: W. FLETCHER and R. NELSON, Circuit Judges,
and MOLLOY,* District Judge.
* The Honorable Donald W. Molloy, United States District
Judge for the District of Montana, sitting by designation.

2a
Appendix A
MEMORANDUM**
Former employees of PennyMac Financial Services,
Inc., appeal the district court’s order compelling arbitration
of their claims under the Federal Fair Labor Standards
Act, 29 U.S.C. §§ 201 et seq., and dismissing the action.
We have jurisdiction under 28 U.S.C. § 1291 and 9 U.S.C.
§ 16(a)(3). See Green Tree Fin. Corp.-Ala. v. Randolph,
531 U.S. 79, 89, 121 S. Ct. 513, 148 L. Ed. 2d 373 (2000);
Interactive Flight Techs., Inc. v. Swissair Swiss Air
Transp. Co., 249 F.3d 1177, 1179 (9th Cir. 2001). We hold
that we are bound by a decision of the California Court of
Appeal holding that PennyMac’s arbitration agreement is
unenforceable in its entirety, and we therefore reverse.1***
The district court compelled arbitration of the
employees’ FLSA claims, declined to exercise supplemental
jurisdiction over their state-law claims, dismissed all
claims before it, and entered judgment. The district
court reasoned that the employees’ FLSA claims were
arbitrable under Epic Systems Corp. v. Lewis, 138 S.
Ct. 1612, 200 L. Ed. 2d 889 (2018), but it did not consider
the employees’ alternative argument that PennyMac’s
arbitration agreement was unenforceable because it
contained an unlawful waiver of representative claims
under the California Private Attorneys General Act,
Cal. Lab. Code §§ 2698 et seq., and that the waiver
** This disposition is not appropriate for publication and
is not precedent except as provided by Ninth Circuit Rule 36-3.
1. PennyMac’s motion for an order that the excerpts of record
be supplemented (Dkt. 41) is DENIED as moot.

3a
Appendix A
was inseverable from the remainder of the arbitration
agreement. After the district court rendered its decision,
the California Court of Appeal held in Smigelski v.
PennyMac Financial Services, Inc., No. C081958, 2018
Cal. App. Unpub. LEXIS 8582, 2018 WL 6629406, at *12
(Cal. Ct. App. Dec. 19, 2018) (unpublished), reh’g denied
(Jan. 9, 2019), review denied, S253796, 2019 Cal. LEXIS
2417 (Cal. Apr. 10, 2019), cert. denied, 140 S. Ct. 223, 205 L.
Ed. 2d 126 (2019), that PennyMac’s arbitration agreement
contains an unlawful and inseverable PAGA waiver and
that therefore “PennyMac cannot compel arbitration of
any of Smigelski’s causes of action, including causes of
action that would otherwise be arbitrable.”
The Full Faith and Credit Clause and its implementing
statute require that federal courts “give to a state-court
judgment the same preclusive effect as would be given
that judgment under the law of the State in which the
judgment was rendered.” Migra v. Warren City Sch.
Dist. Bd. of Educ., 465 U.S. 75, 81, 104 S. Ct. 892, 79 L.
Ed. 2d 56 (1984); Rodriguez v. City of San Jose, 930 F.3d
1123, 1130 (9th Cir. 2019); see also U.S. Const. art. IV,
§ 1; 28 U.S.C. § 1738. Under California law, issue
preclusion applies against a party to a prior proceeding in
which the issue to be precluded was actually litigated and
necessarily decided in a final decision on the merits unless
the application of issue preclusion would be inconsistent
with public policy. See White v. City of Pasadena, 671
F.3d 918, 927 (9th Cir. 2012) (citing Lucido v. Superior
Court, 51 Cal. 3d 335, 272 Cal. Rptr. 767, 795 P.2d 1223,
1225-27 (Cal. 1990)).

4a
Appendix A
The requirements of issue preclusion under California
law are met here. PennyMac was a party to the prior
proceeding; identical arbitration agreements were at issue;
the parties vigorously litigated whether the agreements
contained unenforceable PAGA waivers and whether those
waivers were severable; the Court of Appeal expressly
decided those issues; and its decision is final on appeal.
PennyMac argues that the issues here differ from
those decided in Smigelski because the employees here
assert claims under federal law. We disagree. The Court of
Appeal in Smigelski held that the severability provisions of
PennyMac’s arbitration agreement prohibited severance
of provisions found to violate state law. See 2018 Cal.
App. Unpub. LEXIS 8582, 2018 WL 6629406, at *11. For
that reason, the court held that the agreements were
unenforceable in their entirety, not only as to PAGA claims
or to claims under state law. See 2018 Cal. App. Unpub.
LEXIS 8582, [WL] at *12. That PennyMac disagrees with
the Court of Appeal’s application of federal law is not a
valid basis for refusing that decision full faith and credit
as required by § 1738. See Allen v. McCurry, 449 U.S. 90,
95-96, 101 S. Ct. 411, 66 L. Ed. 2d 308 (1980).
The district court declined to exercise supplemental
jurisdiction over the employees’ state-law claims for the
sole reason that it had dismissed all federal claims before
it. Because we reverse the district court’s order dismissing
the employees’ federal claims, we also reverse as to their
state-law claims.
REVERSED.

5a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE EASTERN
DISTRICT OF CALIFORNIA, DATED JULY 11, 2018
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF CALIFORNIA
No. 2:16-cv-02821-TLN-EFB
ERICH HEIDRICH, ERIC KIDD, MARIA
ANGELICA CASTRO, AND JUSTIN ROBERSON,
ON BEHALF OF THEMSELVES AND OTHERS
SIMILARLY SITUATED,
Plaintiffs,
v.
PENNYMAC FINANCIAL SERVICES, INC.;
PENNYMAC MORTGAGE INVESTMENT
TRUST; and PRIVATE NATIONAL MORTGAGE
ACCEPTANCE CO.,
Defendants.
ORDER GRANTING DEFENDANTS’ MOTION
TO COMPEL ARBITRATION OF FLSA
CLAIM AND TO DISMISS
This matter is before the Court pursuant to Defendants
PennyMac Financial Services, Inc., PennyMac Mortgage
Investment Trust, and Private National Mortgage
Acceptance Co.’s (collectively, “Defendants”) Motion to
Compel Arbitration of the Fair Labor Standards Act

6a
Appendix B
claim (“FLSA”), Motion to Dismiss, or alternatively,
Motion to Stay. (ECF No. 9.) Plaintiffs Erich Heidrich,
Eric Kidd, and Maria Angelica Castro (collectively,
“Plaintiffs”) oppose. (ECF No. 10.) Defendants replied.
(ECF No. 14.) For the reasons set forth below, the Court
GRANTS Defendants’ Motion to Compel Arbitration and
DISMISSES the action.
I.

Factual and Procedural Background

Plaintiffs allege Defendants did not include the full
amount of their non-exempt employees’ compensation
when calculating the regular rate of pay for overtime
purposes. (ECF No. 4 ¶ 1.) Plaintiffs allege Defendants
do not pay employees their bonuses on a timely basis and
do not pay employees all wages owed at the time of their
termination. (ECF No. 4 ¶ 1.) Plaintiffs allege Defendants
concealed violations of state and federal law by failing
to include all required information in wage statements.
(ECF No. 4 ¶ 14.) Plaintiffs allege the failures were part
of company-wide policies and practices. (ECF No. 4 ¶ 17.)
Plaintiffs seek to represent a class of similarly situated
employees and former employees of Defendants. (ECF
No. 4 ¶ 18.)
Defendants required employees, including Plaintiffs,
to sign an “Employee Agreement to Arbitrate” as a part of
a Mutual Arbitration Plan (“MAP”) and as a condition of
employment. (ECF No. 4 ¶ 2; ECF No. 9 at 6.) The MAP
provides: “I understand that final and binding arbitration
will be the sole and exclusive remedy for any [employment]
claim or dispute....” (ECF No. 9-1, Exs. 5-7.) The MAP

7a
Appendix B
includes a waiver which precludes Plaintiffs from engaging
in concerted activity by requiring Plaintiffs to pursue
work-related claims individually in arbitration. (ECF No.
9-1; Ex. 1 at 8; Exs. 5-7.) The MAP waiver includes the
following language: “by agreeing to use arbitration to
resolve my dispute, both PennyMac and I agree to forego
any right we each may have had to a jury trial on issues
covered by the Mutual Arbitration Plan (“MAP”), and
forego any right to bring claims on a representative or
class basis.” (ECF No. 9-1, Exs. 5-7.) The MAP further
explains the agreement to arbitrate “also means that
both you and PennyMac . . . waive any right to join or
consolidate claims in arbitration with others or to make
claims in arbitration as a representative or as a member
of a class or in a private attorney general capacity.” (ECF
No. 9-1, Ex. 1 at 8.)
Defendants move to compel arbitration, arguing the
arbitration agreements are binding. (ECF No. 9 at 4.)
Plaintiffs argue the waiver is illegal under California law
and so the entire arbitration agreement is invalid under
binding Ninth Circuit precedent in Morris v. Ernst &
Young, LLP, 834 F.3d 975 (9th Cir. 2016). (ECF No. 10 at
15.) The Supreme Court granted certiori in Morris and
reversed. Epic Sys. Corp. v. Lewis, 138 S. Ct. 1612, 1632,
200 L. Ed. 2d 889 (2018.)
II. Standard of Law
“[T]he federal law of arbitrability under the Federal
Arbitration Act (“FAA”) governs the allocation of authority
between courts and arbitrators.” Cox v. Ocean View

8a
Appendix B
Hotel Corp., 533 F.3d 1114, 1119 (9th Cir. 2008). There is
an “emphatic federal policy in favor of arbitral dispute
resolution.” Mitsubishi Motors Corp. v. Soler ChryslerPlymouth, 473 U.S. 614, 631, 105 S. Ct. 3346, 87 L. Ed. 2d
444 (1985). As such, “any doubts concerning the scope of
arbitrable issues should be resolved in favor of arbitration,
whether the problem at hand is the construction of the
contract language itself or an allegation of waiver, delay,
or a like defense to arbitrability.” Id. at 626 (quoting Moses
H. Cone Mem’l Hosp. v. Mercury Constr. Corp., 460 U.S.
1, 24-25, 103 S. Ct. 927, 74 L. Ed. 2d 765 (1983)). “Because
waiver of the right to arbitration is disfavored, ‘any party
arguing waiver of arbitration bears a heavy burden of
proof.’” Fisher v. A.G. Becker Paribas Inc., 791 F.2d 691,
694 (9th Cir. 1986) (quoting Belke v. Merrill Lynch, Pierce,
Fenner & Smith, 693 F.2d 1023, 1025 (11th Cir. 1982)).
Generally, in deciding whether a dispute is subject to
an arbitration agreement, the Court must determine: “(1)
whether a valid agreement to arbitrate exists and, if it
does, (2) whether the agreement encompasses the dispute
at issue.” Chiron Corp. v. Ortho Diagnostic Sys., Inc.,
207 F.3d 1126, 1130 (9th Cir. 2000). As such, the Court’s
role “is limited to determining arbitrability and enforcing
agreements to arbitrate, leaving the merits of the claim
and any defenses to the arbitrator.” Republic of Nicaragua
v. Standard Fruit Co., 937 F.2d 469, 479 (9th Cir. 1991).
“In determining the existence of an agreement to
arbitrate, the district court looks to ‘general state-law
principles of contract interpretation, while giving due
regard to the federal policy in favor of arbitration.’”

9a
Appendix B
Botorff v. Amerco, No. 2:12-CV-01286, 2012 U.S. Dist.
LEXIS 179865, 2012 WL 6628952, at *3 (E.D. Cal. Dec.
19, 2012) (citing Wagner v. Stratton, 83 F.3d 1046, 1049
(9th Cir. 1996)). An arbitration agreement may only “be
invalidated by ‘generally applicable contract defenses,
such as fraud, duress, or unconscionability,’ but not by
defenses that apply only to arbitration or that derive their
meaning from the fact that an agreement to arbitrate
is at issue.” AT&T Mobility LLC v. Concepcion, 563
U.S. 333, 131 S. Ct. 1740, 1748, 179 L. Ed. 2d 742 (2011)
(quoting Doctor’s Assocs. Inc. v. Casarotto, 517 U.S. 681,
687, 116 S. Ct. 1652, 134 L. Ed. 2d 902 (1996)). Therefore,
courts may not apply traditional contractual defenses,
like duress and unconscionability, in a broader or more
stringent manner to invalidate arbitration agreements
and thereby undermine FAA’s purpose to “ensur[e] that
private arbitration agreements are enforced according
to their terms.” Id. at 1748 (quoting Volt Info. Scis., Inc.
v. Bd. of Trs. of Leland Stanford Junior Univ., 489 U.S.
468, 478, 109 S. Ct. 1248, 103 L. Ed. 2d 488 (1989)).
If the Court “determines that an arbitration clause is
enforceable, it has the discretion to either stay the case
pending arbitration or to dismiss the case if all of the
alleged claims are subject to arbitration.” Delgadillo v.
James McKaone Enters., Inc., No. 1:12-CV-1149, 2012 U.S.
Dist. LEXIS 130336, 2012 WL 4027019, at *3 (E.D. Cal.
Sept. 12, 2012). The plain language of the FAA provides
that the Court should “stay the trial of the action until such
arbitration has been had in accordance with the terms of
the agreement...” 9 U.S.C. § 3. However, “9 U.S.C. § 3 gives
a court authority, upon application by one of the parties,

10a
Appendix B
to grant a stay pending arbitration, but does not preclude
summary judgment when all claims are barred by an
arbitration clause. Thus, the provision does not limit the
court’s authority to grant dismissal in the case.” Sparling
v. Hoffman Constr. Co., 864 F.2d 635, 638 (9th Cir. 1988).
III. A nalysis
The parties agree Defendants required each plaintiff
to sign an arbitration agreement and also agree that its
provisions waive collective action and require “final and
binding arbitration” as the “sole and exclusive” remedy
for any employment claim or dispute between the parties.
(ECF No. 9 at 6; ECF No. 10 at 14.) Defendants move to
compel arbitration pursuant to the Federal Arbitration
Act (“FAA”) and to dismiss the suit. (ECF No. 9 at 4.)
Defendants argue this Court lacks jurisdiction over the
case because the arbitration agreements are binding so
the suit should be compelled to arbitration and dismissed.
(ECF No. 9 at 4.) Plaintiffs oppose the motions, arguing
the waiver provision is illegal under California law and so
the entire arbitration agreement is invalid under binding
Ninth Circuit precedent in Morris v. Ernst & Young, LLP,
834 F.3d 975 (9th Cir. 2016). (ECF No. 10 at 15.)
After the parties filed their briefs, the Supreme Court
granted certiori in Morris. Epic Sys. Corp., 138 S. Ct. at
1612. The Court considered Morris along with Seventh
Circuit and Fifth Circuit cases that addressed whether
employees should be allowed to bring class or collective
actions where they agreed to one-on-one arbitration and
reversed Morris. Id. at 1632.

11a
Appendix B
In Morris, the Ninth Circuit reversed a district
court’s grant of a motion to compel arbitration. Epic Sys.
Corp., 138 S. Ct. at 1620. The Ninth Circuit reasoned the
FAA’s “savings clause” does not require a court to compel
arbitration if the arbitration agreement violates another
federal law, such as violating sections of the National
Labor Relations Act (“NLRB”) by barring employees
from pursuing collective action. Id.
The Supreme Court found that Congress, in enacting
the FAA, not only required courts to “respect and enforce
agreements to arbitrate,” but “specifically directed them
to respect and enforce the parties’ chosen procedures.”
Epic Sys. Corp., 138 S. Ct. at 1621. The Court found the
FAA’s “savings clause” does not apply to defenses that
target arbitration, rather than defenses that would apply
to all contracts such as duress. Id. at 1622. Further,
the Court found, neither the NLRA (or its “precursor”
the Norris-LaGuardia Act) nor the FSLA displace the
FAA or prohibit individualized arbitration proceedings.
Id. at 1626-27. The Court stated, “a contract defense
‘conditioning the enforceability of certain arbitration
agreements on the availability of classwide arbitration
procedures’ is inconsistent with the Arbitration Act and
its saving clause.” Id. at 1631 (quoting AT & T Mobility
LLC v. Concepcion, 563 U.S. 333, 336, 131 S. Ct. 1740, 179
L. Ed. 2d 742 (2011)).
Under the FAA, where an issue in a suit can be
referred to arbitration pursuant to a written arbitration
agreement, district courts are required to order
arbitration of that issue. 9 U.S.C. §§ 3-4. The court’s role

12a
Appendix B
is “limited to determining (1) whether a valid agreement to
arbitrate exists and, if it does, (2) whether the agreement
encompasses the dispute at issue.” Chiron Corp. v.
Ortho Diagnostic Sys., Inc., 207 F.3d 1126, 1130 (9th Cir.
2000). Here, it is undisputed Plaintiffs signed arbitration
agreements which covered all employment related claims.
Plaintiffs’ FSLA claim alleging improper calculation of
rate of pay is a dispute relating to their employment.
Luchini v. Carmax, Inc., 2012 U.S. Dist. LEXIS 126230,
2012 WL 3862150, at *6 (E.D. Cal. Sept. 5, 2012) (citing
Albertson’s, Inc. v. United Food & Commercial Workers
Union, AFL-CIO & CLC, 157 F.3d 758, 762 (9th Cir.
1998). The parties differed on whether the arbitration
agreement was enforceable and valid given the inclusion
of the waiver. “[T]he law is clear: Congress has instructed
that arbitration agreements like those before us must be
enforced as written.” Epic Sys. Corp., 138 S. Ct. at 1632.
Accordingly, the Court must compel arbitration of the
FSLA claim. Id.; 9 U.S.C. § 3.
Plaintiffs’ FSLA claim is the sole basis for federal
subject matter jurisdiction in this suit. Plaintiffs
remaining claims are state law claims for violations
of California’s Labor Code and for Unfair Business
Practices. (ECF No. 4 at 1.) A federal court may decline
to exercise supplemental jurisdiction over state law claims
where it “dismissed all claims over which it has original
jurisdiction.” 28 U.S.C. § 1367(c)(3). “When, as here, the
court dismisses the federal claim leaving only state claims
for resolution, the court should decline jurisdiction over
the state claims and dismiss them without prejudice.” Les
Shockley Racing, Inc. v. Nat’l Hot Rod Ass’n, 884 F.2d

13a
Appendix B
504, 509 (9th Cir. 1989) (citing Carnegie-Mellon Univ.
v. Cohill, 484 U.S. 343, 348, 108 S. Ct. 614, 98 L. Ed. 2d
720 (1988)). Accordingly, the Court declines to exercise
supplemental jurisdiction over Plaintiffs’ state law claims
and dismisses the claims without prejudice.
IV. Conclusion
For the reasons set forth above, the Court hereby
GRANTS Defendants’ Motion to Compel Arbitration
and to Dismiss the FLSA claim and declines to exercise
supplemental jurisdiction over Plaintiffs’ state law
claims, which are dismissed without prejudice, (ECF
No. 9). Plaintiffs’ pending Motion to Toll the Statute of
Limitations is DENIED as moot, (ECF No. 18). The Clerk
of the Court is directed to close the case.
IT IS SO ORDERED.
Dated: July 9, 2018
/s/ Troy L. Nunley
Troy L. Nunley
United States District Judge

14a
AppendixOF
C THE COURT OF
APPENDIX C — OPINION
APPEAL OF THE STATE OF CALIFORNIA,
THIRD APPELLATE DISTRICT, SACRAMENTO,
FILED DEEMBER 19, 2018
IN THE COURT OF APPEAL OF
THE STATE OF CALIFORNIA
THIRD APPELLATE DISTRICT
(Sacramento)
C081958
(Super. Ct. No.
34201500186855CUOEGDS)
RICHARD SMIGELSKI,
Plaintiff and Respondent,
v.
PENNYMAC FINANCIAL SERVICES, INC. et al.,
Defendants and Appellants.
December 19, 2018, Opinion Filed
Defendants and appellants Private National Mortgage
Acceptance Company, LLC, PennyMac Financial
Services, Inc., and PennyMac Mortgage Investment Trust
(collectively, “PennyMac”) appeal from orders denying
successive petitions to compel arbitration of a dispute
with a former employee, plaintiff and respondent Richard
Smigelski. PennyMac advances a number of arguments
on appeal. Of greatest significance, PennyMac argues

15a
Appendix C
the trial court erred in finding the parties’ arbitration
agreement contains unenforceable waivers of the right
to bring claims under the Private Attorneys General Act
of 2004 (PAGA) (Lab. Code, § 2699 et seq.), and erred in
declining to sever the waivers and enforce the remainder
of the agreement.1 We disagree and affirm.
I. BACKGROUND
PennyMac is engaged in the business of mortgage
orig ination and ser vicing throughout the United
States, including California. Smigelski was employed
as an account executive at PennyMac’s branch office in
Sacramento for six months, beginning in November 2014
and ending in April 2015.
A. The Arbitration Agreement
On his first day of work, Smigelski signed a document
entitled, “Employee Agreement to Arbitrate” (employee
agreement). The employee agreement acknowledges
receipt of another document entitled, “Mutual Arbitration
Policy” (MAP), and provides, “I agree that it is my
obligation to make use of the MAP and to submit to final
and binding arbitration any and all claims and disputes
that are related in any way to my employment or the
termination of my employment with [PennyMac], except
as otherwise permitted by the MAP.” The employee
agreement further provides, “by agreeing to use
arbitration to resolve my dispute, both PennyMac and I
1. Undesignated statutory references are to the Labor Code.

16a
Appendix C
agree to forego any right we each may have had to a jury
trial on issues covered by the MAP, and forego any right
to bring claims on a representative or class basis.” The
employee agreement further provides, “If any provision
of the MAP is found unenforceable, that provision may be
severed without affecting this agreement to arbitrate.”
The MAP, which Smigelski denies having received,
similarly requires “mandatory binding arbitration
of disputes, for all employees, regardless of length of
service.” As relevant here, the MAP “covers all disputes
relating to or arising out of an employee’s employment
with PennyMac,” including “wage or overtime claims or
other claims under the Labor Code.” PennyMac adopted
the MAP in 2008.
The MAP specifies that, “both you and PennyMac
forego and waive any right to join or consolidate claims in
arbitration with others or to make claims in arbitration as
a representative or as a member of a class or in a private
attorney general capacity, unless such procedures are
agreed to by both you and PennyMac.” The MAP further
specifies that, “No remedies that otherwise would be
available to you individually or to PennyMac in a court
of law . . . will be forfeited by virtue of this agreement to
use and be bound by the MAP.”
The MAP incorporates the Employment Arbitration
Rules and Mediation Procedures of the American
Arbitration Association (AAA Employment Rules). The
MAP further provides, “PennyMac will not modify or
change the agreement between you and PennyMac to

17a
Appendix C
use final and binding arbitration to resolve employmentrelated disputes without notifying you and obtaining
your consent to such changes, although specific MAP
procedures or AAA Employment Rules may be modified
from time to time as required by applicable law.” “Also,”
the MAP provides, “the Arbitrator or a court may sever
any part of the MAP procedures that do not comport with
the Federal Arbitration Act.”
B. The Complaint
On September 11, 2015, Smigelski provided notice to
the Labor Workforce and Development Agency (LWDA)
and PennyMac of his intent to pursue a cause of action
for civil penalties under PAGA. On November 17, 2015,
Smigelski filed a complaint asserting a single cause of
action under PAGA. 2 The complaint, which was styled
as a “Representative Action,” alleged that PennyMac
miscalculated overtime for hourly employees and failed
to provide accurate, itemized wage statements. The
complaint did not assert any individual claims and only
sought to recover civil penalties under PAGA.
C. First Petition to Compel Arbitration
PennyMac filed a petition to compel arbitration of
the complaint pursuant to the employee agreement and
MAP (together, the arbitration agreement) in February
2. LWDA had 33 days to notify Smigelski of its intent to
investigate the violations alleged in the PAGA notice under the
version of the statute in effect at the time. (Former § 2699.3, subd.
(a)(2)(A).)

18a
Appendix C
2016. Relying on Iskanian v. CLS Transportation Los
Angeles, LLC (2014) 59 Cal.4th 348, 173 Cal. Rptr. 3d 289,
327 P.3d 129 (Iskanian), PennyMac argued, inter alia,
that (1) employers and employees may agree to arbitrate
PAGA claims (id. at p. 391), (2) the arbitration agreement
reflects such an agreement, (3) the Federal Arbitration Act
(FAA) requires enforcement of the purported agreement
to arbitrate PAGA claims, and (4) any unenforceable
provisions in the arbitration agreement should be severed,
and the remaining provisions enforced. 3 PennyMac also
argued that the question of arbitrability was for the
arbitrator to decide, not the trial court.
Smigelski opposed the petition, arguing that the
arbitration agreement contains unenforceable PAGA
waivers within the meaning of Iskanian. Smigelski
additionally argued that the terms of arbitration
agreement preclude severance of the PAGA waivers,
rendering the agreement as a whole unenforceable.
Smigelski also argued that the arbitration agreement
does not “clearly and unmistakably” demonstrate that the
parties intended to delegate questions of arbitrability to
the arbitrator, and therefore, any questions of arbitrability
must be decided by the trial court. (See Ajamian v.
CantorCO2e (2012) 203 Cal.App.4th 771, 781-782, 137 Cal.
Rptr. 3d 773 (Ajamian).)
The trial court denied PennyMac’s petition in a minute
order dated March 3, 2016, which was incorporated into a
formal order entered on March 11, 2016. The trial court
3. We discuss Iskanian post.

19a
Appendix C
rejected as “strained” PennyMac’s argument that the
arbitration agreement contemplates arbitration of PAGA
claims, stating: “There is no ambiguity in the [employee
agreement] or the MAP. PAGA claims are prohibited
in arbitration given that the employee waives any right
to make representative claims or claims in a private
attorney general capacity. Such a prohibition violates
public policy and is unenforceable.” The trial court also
rejected PennyMac’s invitation to sever the PAGA waivers,
finding that severance would be inconsistent with the
parties’ intent, as expressed in the arbitration agreement.
The trial court explained: “[W]hile the [employee
agreement] contains an offending provision requiring
[Smigelski] to forego any representative claim, that
[a]greement specifically states that if ‘any provision of the
MAP is found to be unenforceable, that provision may be
severed without affecting this agreement to arbitrate.’
[Citation.] The [employee agreement] itself does not
contain a provision allowing for severance. This express
language reflects an intent not to sever any portion of the
[employee agreement] and striking the provision would
conflict with the parties’ intent. [Citation.] Further, the
MAP itself only provides for severance of any provision
that does not comport with the FAA. [Citation.] But here,
the waiver provisions do not comport with State law, and
thus severance of the provision in the MAP would also
conflict with the parties’ intent.” Accordingly, the trial
court determined that the arbitration agreement was
entirely unenforceable.
The trial court also rejected PennyMac’s argument
that questions of arbitrability must be determined by the

20a
Appendix C
arbitrator, noting that the MAP provides, “the Arbitrator
or a court may sever any part of the MAP procedures that
do not comport with the [FAA].” (Italics added.) “Thus,”
the trial court explained, “the [arbitration] agreements
themselves indicate an intent that the [c]ourt itself may
decide questions of arbitrability, or at a minimum[,]
create an ambiguity on that point.” Accordingly, the trial
court concluded that the question of arbitrability was
appropriate for judicial determination.
D. First Amended Complaint
On March 10, 2016, Smigelski filed a first amended
complaint adding several non-PAGA causes of action to
the original complaint. The first amended complaint,
which is the operative pleading, alleges individual and
putative class claims for unpaid overtime under sections
510 and 1194, penalties for failure to provide accurate wage
statements under section 226, waiting time penalties under
section 203, and violations of the Business and Professions
Code section 17200, et seq. The first amended complaint
seeks unpaid wages, statutory penalties, restitution, and
damages according to proof, in addition to civil penalties
under PAGA.
E. Motion for Reconsideration and Second Petition to
Compel Arbitration
PennyMac responded to the first amended complaint
with a motion for reconsideration and a second petition to
compel arbitration. The motion sought reconsideration of
the order denying the first petition to compel arbitration

21a
Appendix C
on the ground that the filing of the first amended complaint
constituted a “new and different” fact or circumstance
within the meaning of subdivision (a) of section 1008 of the
Code of Civil Procedure. The petition sought to compel
arbitration on the now familiar ground that the arbitration
agreement requires arbitration of all claims, including
PAGA claims, and any unenforceable PAGA waiver could
be severed. The second petition to compel arbitration also
argued, again, that the arbitration agreement delegates
questions of arbitrability to the arbitrator.
Smigelski opposed the motion and petition, arguing
that the filing of the first amended complaint was not a
new and different fact or circumstance within the meaning
of the reconsideration statute, and did not change the
fact that the PAGA waivers were impermissible and
the arbitration agreement unenforceable. Smigelski
additionally argued that the second petition to compel
arbitration was merely a repeat of the first, and should be
rejected for the reasons stated in the trial court’s order
denying that petition.
The trial court denied the motion for reconsideration
by written order dated April 22, 2016. The trial court
explained: “[T]he [c]ourt finds that [Smigelski’s] act of
filing the [first amended complaint] containing new claims
is not a new or different fact or circumstance which
would allow the [c]ourt to reconsider its previous order
denying [PennyMac’s first] petition to compel arbitration.
Indeed, to that end, it must be remembered that the
[c]ourt in denying the petition found that the MAP and the
[employment agreement] contained provisions that violated

22a
Appendix C
public policy and could not be severed thus rendering the
entire MAP and [employment agreement] unenforceable.
It is true that the [c]ourt’s ruling extensively discussed
the fact that [Smigelski] was only asserting a PAGA claim
at the time. But the [c]ourt specifically found that even so,
provisions prohibiting arbitration of PAGA claims could
not be severed from the agreements and the agreements
as a whole were therefore unenforceable. This of course
would preclude arbitration of not only PAGA claims, but
any claims whatsoever, including the new individual and
class claims set forth in the [first amended complaint].”
“In any event,” the trial court concluded, “even if the court
were to find that the [first amended complaint] was a new
or different fact or circumstance for purposes of [section
1008], it would simply affirm its previous order denying
[PennyMac’s first] petition to compel arbitration.”
The trial court denied PennyMac’s second petition
to compel arbitration the same day, stating that, “Even
if the [c]ourt were to find that a successive petition were
permitted as a result of the [first amended complaint]
being filed, the [c]ourt extensively addressed and rejected
these arguments in denying the original petition and
the [c]ourt simply rejects the arguments for the reasons
previously discussed.”
F. Notice of Appeal
PennyMac appeals from the orders denying its first
and second petitions to compel arbitration. PennyMac
does not appeal from the order denying its motion for
reconsideration.

23a
Appendix C
II. DISCUSSION
On appeal, PennyMac argues the trial court erred in
denying the petitions to compel arbitration for a number of
reasons, many of which appear to build upon one another
in ways that are not always easy to discern. As near as
we can tell, PennyMac’s argument can be reduced to four
principal contentions: (1) the arbitration agreement does
not contain invalid PAGA waivers, (2) any illegal aspects
of the arbitration agreement should be severed, and the
rest of the agreement enforced, (3) the parties delegated
the question of arbitrability to the arbitrator, and (4) the
FAA preempts any state law precluding employers from
requiring employees to waive their right to a judicial
forum for PAGA claims as a condition of employment.
Before addressing the substance of PennyMac’s
contentions, we pause to review the applicable statutory
scheme and standard of review. Because PennyMac’s
contentions require an understanding of PAGA, we will
also review the characteristics of a PAGA representative
action and the California Supreme Court’s ruling in
Iskanian. After we have reviewed the relevant statutory
background, we will address the substance of the parties’
contentions.
A. Statutory Scheme and Standard of Review
California’s procedures for a petition to compel
arbitration apply in California courts even if the arbitration
agreement is governed by the FAA. (Rosenthal v. Great
Western Fin. Securities Corp. (1996) 14 Cal.4th 394, 409-

24a
Appendix C
410, 58 Cal. Rptr. 2d 875, 926 P.2d 1061.) The party seeking
arbitration bears the burden of proving the existence of an
arbitration agreement by a preponderance of the evidence,
and the party opposing arbitration bears the burden of
proving any defense by a preponderance of the evidence.
(Pinnacle Museum Tower Assn. v. Pinnacle Market
Development (US), LLC (2012) 55 Cal.4th 223, 236, 145
Cal. Rptr. 3d 514, 282 P.3d 1217; Engalla v. Permanente
Medical Group, Inc. (1997) 15 Cal.4th 951, 972, 64 Cal.
Rptr. 2d 843, 938 P.2d 903.) In ruling on a petition to
compel arbitration, “the court must determine whether
the parties entered into an enforceable agreement to
arbitrate that reaches the dispute in question, construing
the agreement to the limited extent necessary to make
this determination. [Citation.] If such an agreement exists,
the court must order the parties to arbitration unless
arbitration has been waived or grounds exist to revoke
the agreement. [Citation.]” (California Correctional Peace
Officers Assn. v. State of California (2006) 142 Cal.App.4th
198, 204-205, 47 Cal. Rptr. 3d 717.)
“‘The scope of arbitration is a matter of agreement
between the parties.’ [Citation.] ‘A party can be compelled
to arbitrate only those issues it has agreed to arbitrate.’
[Citation.] Thus, ‘the terms of the specific arbitration
clause under consideration must reasonably cover the
dispute as to which arbitration is requested.’ [Citation.]
For that reason, ‘the contractual terms themselves must
be carefully examined before the parties to the contract
can be ordered to arbitration’ by the court. [Citation.]”
(Molecular Analytical Systems v. Ciphergen Biosystems,
Inc. (2010) 186 Cal.App.4th 696, 705, 111 Cal. Rptr. 3d 876

25a
Appendix C
(Molecular).) “Any doubts or ambiguities as to the scope
of the arbitration clause itself should be resolved in favor
of arbitration.” (Cronus Investments, Inc. v. Concierge
Services (2005) 35 Cal.4th 376, 386, 25 Cal. Rptr. 3d 540,
107 P.3d 217; accord Molecular, supra, at p. 705.)
An order denying a petition to compel arbitration is an
appealable order. (Code Civ. Proc., § 1294, subd. (a).) If the
trial court’s order denying a petition to compel arbitration
is based on a decision of fact, then the substantial evidence
standard applies; if the order is based on a decision of law,
then the de novo standard applies. (Ramos v. Westlake
Services LLC (2015) 242 Cal.App.4th 674, 686, 195 Cal.
Rptr. 3d 34; Robertson of Health Net of California, Inc.
(2005) 132 Cal.App.4th 1419, 1425, 34 Cal. Rptr. 3d 547.)
“‘[W]e review the trial court’s order, not its reasoning,
and affirm an order if it is correct on any theory apparent
from the record.’” (Adajar v. RWR Homes, Inc. (2008) 160
Cal.App.4th 563, 571, fn. 3, 73 Cal. Rptr. 3d 17.)
B. PAGA
PAGA was enacted to improve enforcement of our labor
laws. (See Caliber Bodyworks v. Superior Court (2005) 134
Cal.App.4th 365, 370, 36 Cal. Rptr. 3d 31 [noting that the
“stated goal” of the PAGA was “improving enforcement
of existing Labor Code obligations”].) “The Legislature
enacted PAGA to remedy systemic underenforcement of
many worker protections. This underenforcement was a
product of two related problems. First, many Labor Code
provisions contained only criminal sanctions, and district
attorneys often had higher priorities. Second, even when

26a
Appendix C
civil sanctions were attached, the government agencies
with existing authority to ensure compliance often lacked
adequate staffing and resources to police labor practices
throughout an economy the size of California’s. [Citations.]
The Legislature addressed these difficulties by adopting
a schedule of civil penalties ‘”significant enough to deter
violations”’ for those provisions that lacked existing
noncriminal sanctions, and by deputizing employees
harmed by labor violations to sue on behalf of the state
and collect penalties, to be shared with the state and
other affected employees.” (Williams v. Superior Court
(2017) 3 Cal.5th 531, 545, 220 Cal. Rptr. 3d 472, 398 P.3d
69 (Williams).)
Under PAGA, “an ‘aggrieved employee’ may bring a
civil action personally and on behalf of other current or
former employees to recover civil penalties for Labor Code
violations.” (Arias v. Superior Court (2009) 46 Cal.4th 969,
980, 95 Cal. Rptr. 3d 588, 209 P.3d 923 (Arias).) Before
bringing a PAGA claim, “an aggrieved employee acting on
behalf of the state and other current or former employees
must provide notice to the employer and the responsible
state agency ‘of the specific provisions of [the Labor
Code] alleged to have been violated, including the facts
and theories to support the alleged violation.’ [Citations.]
If the agency elects not to investigate, or investigates
without issuing a citation, the employee may then bring a
PAGA action.” (Williams, supra, 3 Cal.5th at p. 545.) “Of
the civil penalties recovered, 75 percent goes to the Labor
and Workforce Development Agency [LWDA], leaving
the remaining 25 percent for the ‘aggrieved employees.’”
(Arias, supra, at pp. 980-981; see also Iskanian, supra, 59

27a
Appendix C
Cal.4th at p. 360 [PAGA “authorizes an employee to bring
an action for civil penalties on behalf of the state against
his or her employer for Labor Code violations committed
against the employee and fellow employees, with most of
the proceeds of that litigation going to the state”].)
An action under PAGA “‘“is fundamentally a law
enforcement action designed to protect the public and
not to benefit private parties.”’” (Iskanian, supra, 59
Cal.4th at p. 381.) As one court of appeal has explained:
“The Legislature has made clear that an action under the
PAGA is in the nature of an enforcement action, with the
aggrieved employee acting as a private attorney general
to collect penalties from employers who violate labor laws.
Such an action is fundamentally a law enforcement action
designed to protect the public and penalize the employer
for past illegal conduct. Restitution is not the primary
object of a PAGA action, as it is in most class actions.”
(Franco v. Athens Disposal Co., Inc. (2009) 171 Cal.
App.4th 1277, 1300, 90 Cal. Rptr. 3d 539.) The aggrieved
employee sues “as the proxy or agent of the state’s labor
law enforcement agencies.” (Arias, supra, 46 Cal.4th at p.
986.) Thus, an action brought under the PAGA is “a type
of qui tam action.” (Iskanian, supra, at p. 382.)
Our Supreme Court examined the differences
between representative PAGA actions and class actions
in Arias. There, the court explained that PAGA actions
and class actions are both forms of “representative
action,” in which “the plaintiff seeks recovery on behalf
of other persons.” (Arias, supra, 46 Cal.4th at p. 977, fn.
2.) While recognizing that PAGA actions and class actions

28a
Appendix C
share common attributes as “representative actions,” the
court observed that PAGA actions are fundamentally
different from class actions, in that the former seek to
vindicate the public interest in enforcing the state’s labor
laws by imposing civil penalties, while the latter confer
a private benefit on the plaintiff and similarly situated
employees. (Id. at pp. 986-987; see also Amalgamated
Transit Union, Local 1756, AFL-CIO v. Superior Court
(2009) 46 Cal.4th 993, 1003, 95 Cal. Rptr. 3d 605, 209 P.3d
937 [“In bringing such an action, the aggrieved employee
acts as the proxy or agent of state labor law enforcement
agencies, representing the same legal right and interest as
those agencies, in a proceeding that is designed to protect
the public, not to benefit private parties”].) As such, the
court concluded, PAGA plaintiffs need not satisfy class
action requirements. (Arias, supra, at p. 975.) As we shall
discuss, the differences between representative and class
actions, which have been part of the legal landscape since
Arias, inform our understanding of the parties’ arbitration
agreement.
C. Iskanian
Having reviewed the basic statutory scheme for PAGA
claims, we now consider our Supreme Court’s opinion in
Iskanian. There, a driver for a transportation company
signed an arbitration agreement providing that “any
and all claims” arising out of his employment were to be
submitted to binding arbitration. (Iskanian, supra, 59
Cal.4th at p. 360.) The agreement also contained a waiver
of the employee’s right to pursue class or representative
claims against the defendant employer in any forum. (Id.
at pp. 360-361.)

29a
Appendix C
The employee filed a class action complaint against
the employer for failure to pay overtime, failure to provide
meal and rest periods, failure to reimburse business
expenses, failure to provide accurate and complete wage
statements, and failure to pay final wages in a timely
manner. (Iskanian, supra, 59 Cal.4th at p. 361.) The
employer moved to compel arbitration, and the trial
court granted the motion. (Ibid.) Shortly thereafter, our
Supreme Court issued its decision in Gentry v. Superior
Court (2007) 42 Cal.4th 443, 64 Cal. Rptr. 3d 773, 165
P.3d 556 (Gentry), invalidating class action waivers under
certain circumstances. (Iskanian, supra, at p. 361; see
also Gentry, supra, at pp. 463-464.) The court of appeal
issued a writ of mandate directing the superior court to
reconsider its ruling in light of Gentry. (Iskanian, supra,
at p. 361.)
On remand, the employer voluntarily withdrew its
motion to compel, and the parties proceeded to litigate
in the trial court. (Iskanian, supra, 59 Cal.4th at p. 361.)
Sometime later, the employee amended the complaint to
add representative claims under PAGA. (Ibid.)
During the pendency of the litigation, the U.S.
Supreme Court issued its opinion in AT&T Mobility LLC
v. Concepcion (2011) 563 U.S. 333, 131 S. Ct. 1740, 179 L.
Ed. 2d 742 (Concepcion), raising doubts as to the continued
viability of Gentry. (Iskanian, supra, 59 Cal.4th at pp. 361362.) The employer renewed its motion to compel, arguing
that Concepcion invalidated Gentry. (Id. at p. 361.) The
trial court granted the motion, ordering arbitration of
the employee’s individual claims and dismissing the class

30a
Appendix C
claims with prejudice. (Ibid.) The court of appeal affirmed,
and the California Supreme Court granted review and
reversed. (Id. at pp. 361-362.)
The court concluded that the arbitration agreement
was valid and enforceable, despite the class action waiver.
(Iskanian, supra, 59 Cal.4th at p. 362-378.) Under
Concepcion, the court concluded, arbitration agreements
may properly include class action waivers. (Id. at pp. 365366.) However, the court, following Arias, reaffirmed
that PAGA claims are fundamentally different from class
actions claims. (Id. at pp. 379-382.) Unlike class actions,
which are brought as a means of recovering damages
suffered by individuals, representative actions under
PAGA are brought as a means of recovering penalties
for the state. (Id. at p. 379.) The court explained: “The
PAGA was clearly established for a public reason, and
agreements requiring the waiver of PAGA rights would
harm the state’s interests in enforcing the Labor Code
and in receiving the proceeds of civil penalties used to
deter violations.” (Id. at p. 383.)
In recognition of PAGA’s public purpose, the court
concluded that, “an employee’s right to bring a PAGA
action is unwaivable.” (Iskanian, supra, 59 Cal.4th at p.
383.) Consequently, “an arbitration agreement requiring
an employee as a condition of employment to give up the
right to bring representative PAGA actions in any forum
is contrary to public policy.” (Id. at p. 360.) Put another
way, an arbitration agreement compelling the waiver of
representative PAGA claims is “contrary to public policy
and unenforceable as a matter of state law.” (Id. at p. 384.)
The court did not examine the severability of the PAGA

31a
Appendix C
waiver, presumably because the issue was not raised on
appeal. (Id. at pp. 360-361.)
Next, the court considered whether the rule prohibiting
waiver of representative PAGA claims (the anti-waiver
rule) was preempted by the FAA. (Iskanian, supra, 59
Cal.4th at pp. 384-389.) Relying on the fact that PAGA
serves as a mechanism by which the state seeks to enforce
its labor laws and collect monetary penalties, the court
explained: “Simply put, a PAGA claim lies outside the
FAA’s coverage because it is not a dispute between an
employer and an employee arising out of their contractual
relationship. It is a dispute between an employer and
the state, which alleges directly or through its agents—
either the [Labor and Workforce Development] Agency or
aggrieved employees—that the employer has violated the
Labor Code.” (Id. at pp. 386-387.) Accordingly, the court
concluded, “California’s public policy prohibiting waiver
of PAGA claims, whose sole purpose is to vindicate the
[Labor and Workforce Development] Agency’s interest
in enforcing the Labor Code, does not interfere with the
FAA’s goal of promoting arbitration as a forum for private
dispute resolution.” (Id. at pp. 388-389.)
Finally, the court made clear that the employer would
have to answer the employee’s representative PAGA
claims on remand in some forum, whether arbitral or
judicial. (Iskanian, supra, 59 Cal.4th at p. 391.) The court
observed that the arbitration agreement “gives us no
basis to assume that the parties would prefer to resolve
a representative PAGA claim through arbitration,” (id.
at p. 391) thereby raising “a number of questions: (1)

32a
Appendix C
Will the parties agree on a single forum for resolving
the PAGA claim and the other claims? (2) If not, is it
appropriate to bifurcate the claims, with individual claims
going to arbitration and the representative PAGA claim
to litigation? (3) If such bifurcation occurs, should the
arbitration be stayed pursuant to Code of Civil Procedure
section 1281.2?” (Id. at pp. 391-392.) The court concluded
that the parties could address these questions on remand.
(Id. at p. 392.)
D. The Arbitration Agreement Contains Invalid PAGA
Waivers
PennyMac argues the arbitration agreement does
not contain unenforceable PAGA waivers, but rather,
reflects the parties’ agreement to submit all employment
disputes, including PAGA claims, to arbitration. According
to PennyMac, the employee agreement, which contains
an agreement to “forego any right to bring claims on
a representative or class basis,” is ambiguous as to the
meaning of the term “representative,” and should be
narrowly interpreted as an enforceable waiver of the
right to bring a class action only, rather than broadly
interpreted as an enforceable waiver of the right to bring
a class action and an unenforceable waiver of the right
to bring a PAGA action. PennyMac argues (incorrectly)
that PAGA “does not use the word ‘representative’ at all,”
and urges us to construe the purported ambiguity in a
manner that renders the employee agreement enforceable,
rather than void. (See § 2699, subd. (l)(1) [requiring that
“aggrieved employee or representative” provide the
LWDA with a file-stamped copy of a complaint alleging a
PAGA cause of action].) We are not persuaded.

33a
Appendix C
“The ordinary rules of contract interpretation apply
to arbitration agreements. [Citation.] ‘The court should
attempt to give effect to the parties’ intentions, in light
of the usual and ordinary meaning of the contractual
language and the circumstances under which the
agreement was made. [Citations.]’ ‘The whole of a contract
is to be taken together, so as to give effect to every part,
if reasonably practicable, each clause helping to interpret
the other.’ [Citation.] ‘”A court must view the language in
light of the instrument as a whole and not use a ‘disjointed,
single-paragraph, strict construction approach’ [citation.]”’
[Citation.] An interpretation that leaves part of a contract
as surplusage is to be avoided.” (Rice v. Downs (2016) 248
Cal.App.4th 175, 185-186, 203 Cal. Rptr. 3d 555.)
PennyMac begins by asking us to construe the waiver
of “any right to bring claims on a representative or class
basis” as a waiver of the right to bring claims on a class
basis only, with the word “representative,” operating as
an illustration or amplification of the concept of a class
action.4 PennyMac’s proposed interpretation ignores the
differences between representative and class actions,
4. We note in passing that the Iskanian court uses the term
“representative” in two distinct ways: (1) in the sense that an
aggrieved employee brings a PAGA claim as a “representative”—i.e.,
a proxy or agent—of the state (Iskanian, supra, 59 Cal.4th at p. 387),
and (2) in the sense that an aggrieved employee brings a PAGA claim
on behalf of other employees (id. at pp. 383-384). (See also Julian v.
Glenair, Inc. (2017) Cal.App.5th 853, 866, fn. 6 (Julian).) PennyMac
does not argue that the double meaning of the term “representative,”
as used in the Iskanian court’s discussion of PAGA claims, renders
the term ambiguous in the context of the arbitration agreement.
Accordingly, we decline to consider the issue further.

34a
Appendix C
which were well established by the time the employee
agreement was entered. Although a claim brought on
a class basis is representative in the sense that it seeks
recovery on behalf of other people (Arias, supra, 46
Cal.4th at p. 977, fn. 2), a claim brought on a representative
basis need not seek recovery on behalf of a class. (Id. at p.
975; see also Huff v. Securitas Security Services USA, Inc.
(2018) 23 Cal.App.5th 745, 757, 233 Cal. Rptr. 3d 502 [“[A]
representative action under PAGA is not a class action”].)
It follows that a claim brought on a representative basis
is not coextensive with a claim brought on a class basis,
an interpretation reinforced by the use of the conjunction
“or,” which indicates that the parties intended to give the
terms different meanings, consistent with the established
technical usage at the time of contracting. (See Arias,
supra, at pp. 986-987; and see Civ. Code, § 1645 [“Technical
words are to be interpreted as usually understood by
persons in the profession or business to which they relate,
unless clearly used in a different sense”]; and cf. United
States v. Woods (2013) 571 U.S. 31, 45, 134 S. Ct. 557, 187
L. Ed. 2d 472 [recognizing that while the connection of
terms “by the conjunction ‘or’ . . . can sometimes introduce
an appositive—a word or phrase that is synonymous with
what precedes it (‘Vienna or Wien,’ ‘Batman or the Caped
Crusader’)—its ordinary use is almost always disjunctive,
that is, the words it connects are to ‘be given separate
meanings’”].)
Giving the terms of the employee agreement their
settled legal meaning, and giving meaning to each term
to avoid surplusage, we are convinced the waiver of the
right to bring a “representative” claim entails something

35a
Appendix C
more than a mere recapitulation of the waiver of the right
to bring a claim on a “class basis.” (See Weinreich Estate
Co. v. A.J. Johnston Co. (1915) 28 Cal.App. 144, 146, 151
P. 667 [“legal terms are to be given their legal meaning
unless obviously used in a different sense”]; and see In re
Marriage of Nassimi (2016) 3 Cal. App. 5th 667, 683, 207
Cal. Rptr. 3d 764 [“‘[c]ourts must interpret contractual
language in a manner which gives force and effect to every
provision’ [citation], and avoid constructions which would
render any of its provisions or words ‘surplusage’”].) We
therefore reject PennyMac’s attempt to read an ambiguity
into the terms of the waiver.
Having rejected PennyMac’s contention that the
waiver is ambiguous, we likewise reject the related
contention that the purported ambiguity should be
construed in a manner that renders the arbitration
agreement enforceable. As a general proposition,
ambiguous terms should be construed, where reasonable,
in favor of arbitration. (Pearson v. Dental Supplies, Inc. v.
Superior Court (2010) 48 Cal.4th 665, 682, 108 Cal. Rptr.
3d 171, 229 P.3d 83; see also Ajamian, supra, 203 Cal.
App.4th at p. 801.) But that rule does not apply where, as
here, the terms of the agreement do not lend themselves
to a lawful interpretation. (Ajamian, supra, at p. 801) We
therefore conclude that the arbitration agreement must be
construed as waiving both the right to bring class action
claims and the right to bring representative PAGA claims.
As we have discussed, an employment agreement
that compels the waiver of representative claims under
PAGA is unenforceable under Iskanian. (Iskanian,

36a
Appendix C
supra, 59 Cal.4th at p. 384 [“We conclude that where, as
here, an employment agreement compels the waiver of
representative claims under the PAGA, it is contrary to
public policy and unenforceable as a matter of state law”].)
Here, the arbitration agreement unambiguously requires
employees to waive their rights to bring representative
PAGA claims. We agree with the trial court that the PAGA
waivers set forth in the arbitration agreement are invalid
as against public policy and unenforceable under Iskanian.
In an attempt to avoid this result, PennyMac argues
somewhat confusingly that (1) Iskanian leaves open the
possibility that parties may agree to arbitrate PAGA
claims (Iskanian, supra, 59 Cal.4th at pp. 391-392),
(2) the arbitration agreement does not bar employees
from bringing PAGA claims, and (3) the MAP and AAA
Employment Rules empower the arbitrator to award
any statutorily authorized civil penalty, including PAGA
penalties. Connecting the dots, we understand PennyMac
to argue that the arbitration agreement does not contain
impermissible PAGA waivers because, though employees
may waive their right to bring representative claims in
any forum, they retain their right to bring individual
PAGA claims in arbitration. To the extent we understand
PennyMac’s argument, we reject it.
Following Iskanian, several courts of appeal have
considered—and rejected—similar arguments, reasoning
that predispute agreements to arbitrate PAGA claims
are unenforceable because the employee who signs the
agreement is not then authorized to waive the state’s right
to a judicial forum. (Tanguilig v. Bloomingdale’s, Inc.

37a
Appendix C
(2016) 5 Cal.App.5th 665, 667-680, 210 Cal. Rptr. 3d 352
(Tanguilig) [PAGA claim cannot be arbitrated pursuant to
predispute arbitration agreement without state’s consent];
Betancourt v. Prudential Overall Supply (2017) 9 Cal.
App.5th 439, 445-448, 215 Cal. Rptr. 3d 344 (Betancourt)
[PAGA action not subject to arbitration, as state not
bound by employee’s predispute agreement]; Julian,
supra, 17 Cal.App.5th at pp. 869-873 [same].) The Julian
court, following Tanguilig and Betancourt, elaborated
on its reasoning as follows: “In Iskanian, our Supreme
Court explained that ‘”every PAGA action, whether
seeking penalties for Labor Code violations as to only one
aggrieved employee—the plaintiff bringing the action—or
as to other employees as well, is a representative action
on behalf of the state.”’ [Citation.] A PAGA action is thus
ultimately founded on a right belonging to the state,
which—though not named in the action—is the real party
in interest. [Citation.] That is because PAGA does not
create any new substantive rights or legal obligations,
but ‘is simply a procedural statute allowing an aggrieved
employee to recover civil penalties—for Labor Code
violations—that otherwise would be sought by state labor
law enforcement agencies.’ [Citation.]” (Julian, supra, at
p. 871.)
The Julian court continued: “Ordinarily, when a
person who may act in two legal capacities executes an
arbitration agreement in one of those capacities, the
agreement does not encompass claims the person is
entitled to assert in the other capacity. [Citations.] That
rule reflects general principles regarding the significance
of legal capacities.” (Julian, supra, 17 Cal.App.5th at pp.
871-872.)

38a
Appendix C
The Julian court concluded: “Under the rule set
forth above, an arbitration agreement executed before
an employee meets the statutory requirements for
commencing a PAGA action does not encompass that
action. Prior to satisfying those requirements, an employee
enters into the agreement as an individual, rather than as
an agent or representative of the state. As an individual,
the employee is not authorized to assert a PAGA claim;
the state—through LWDA—retains control of the right
underlying any PAGA claim by the employee. Thus, such
a predispute agreement does not subject the PAGA claim
to arbitration. [Citations.] For that reason, enforcing
any such agreement would impair PAGA’s enforcement
mechanism.” (Julian, supra, 17 Cal.App.5th at p. 872.)
We agree with the reasoning in Julian and adopt its
analysis as our own. Following Julian, we conclude that
the arbitration agreement does not encompass the PAGA
claim. (Julian, supra, 17 Cal.App.5th at p. 871.) The
record establishes that Smigelski executed the employee
agreement as a condition of his employment in November
2014, before he satisfied the statutory requirements for
bringing a PAGA claim, which occurred sometime in
October 2015. (Former § 2699.3, subd. (a)(2)(A).) Prior
to the time he satisfied those requirements, Smigelski
was not authorized to assert a PAGA claim as an agent of
the state, which retained control of the right underlying
the claim. (See Arias, supra, 46 Cal.4th at pp. 980-981;
Julian, supra, at p. 872.) Because Smigelski entered
the arbitration agreement as an individual, and not as
an agent or representative of the state, the agreement
cannot encompass the PAGA claim, which relies on the

39a
Appendix C
right to recover penalties then belonging to the state.
(Julian, supra, at p. 872; see also Betancourt, supra,
9 Cal.App.5th at p. 448.) It follows that any predispute
agreement to arbitrate individual PAGA claims was
ineffective. (Tanguilig, supra, Cal.App.5th at p. 680 [“the
right to litigate a PAGA claim in court is not subject to
predispute waiver—with respect to an ‘individual’ or a
group claim—by an individual employee pursuant to a
private employment arbitration agreement”].)
These authorities lead us to reject PennyMac’s
apparent argument that the arbitration agreement can
or should be viewed as requiring a waiver of the right to
bring a representative PAGA action in any forum, on the
one hand, while preserving the right to bring an individual
PAGA claim in arbitration, on the other. In the absence of
any enforceable agreement to arbitrate individual PAGA
claims, the arbitration agreement can only be viewed as
requiring a complete waiver of the right to bring PAGA
claims. As we have discussed, such waivers are invalid
under Iskanian.
E. The PAGA Waivers Are Not Severable
Hav i ng concluded t hat t he PAGA wa iver i s
unenforceable, we must next determine whether the
waiver is severable from the rest of the arbitration
agreement. (Securitas Security Services USA, Inc. v.
Superior Court (2015) 234 Cal.App.4th 1109, 1124, 184 Cal.
Rptr. 3d 568 (Securitas).) PennyMac argues the waiver
is severable; Smigelski maintains the waiver renders the
entire arbitration agreement unenforceable. We agree
with Smigelski.

40a
Appendix C
The arbitration agreement contains two provisions
dealing with severability. We begin with the employee
agreement. The employee agreement, which contains a
PAGA waiver, provides, “If any provision of the MAP
is found unenforceable, that provision may be severed
without affecting this agreement to arbitrate.” The
employee agreement does not authorize severance of
unenforceable terms in the employee agreement itself.
Thus, the employee agreement does not authorize
severance of the PAGA waiver found within the employee
agreement. The MAP, which contains a separate PAGA
waiver, provides that “the Arbitrator or a court may sever
any part of the MAP procedures that do not comport
with the [FAA].” Here, however, the PAGA waivers
fail to comport with state law, not the FAA. Reading
the arbitration agreement as a whole, and applying the
principle that specific language controls general language
(Civ. Code, § 3534), we conclude that the parties only
intended to sever unenforceable provisions from the
MAP, and then only on the ground that the unenforceable
provision fails to comport with the FAA. (Kanno v. Marwit
Capital Partners II, L.P. (2017) 18 Cal.App.5th 987, 1017,
227 Cal. Rptr. 3d 334 [“a specific provision of a contract
controls over a general provision to the extent there is an
inconsistency”].) Applying the maxim expressio unius est
exclusio alterius, we further conclude that the parties did
not intend to sever any other unenforceable provisions
from the arbitration agreement. (Cf. Stephenson v. Drever
(1997) 16 Cal.4th 1167, 1175, 69 Cal. Rptr. 2d 764, 947 P.2d
1301 [under maxim expressio unius est exclusio alterius,
where parties’ contract expressly provided that certain
consequences would flow from termination of plaintiff’s

41a
Appendix C
employment, this tended to negate inference that parties
also intended another consequence to flow from the same
event].)
PennyMac argues that other provisions of the
arbitration agreement—specifically, the provision stating
that “specific MAP procedures or AAA Rules may be
modified from time to time as required by applicable
law”—evince “an intention to have any unenforceable
provisions or terms excised in order to maintain the
enforceability of the heart of the arbitration agreement—
i.e.[,] the mutual obligation to use arbitration as the
exclusive forum in which to resolve any employment
relate[d] disputes.” But PennyMac’s argument ignores the
arbitration agreement’s specific severability provisions,
which are the clearest expression of the parties’ intent
with respect to severability. (In re Tobacco Cases I
(2010) 186 Cal.App.4th 42, 47, 111 Cal. Rptr. 3d 313 [the
parties’ expressed objective intent, not their unexpressed
subjective intent, governs].)
PennyMac also argues that a proper severability
analysis would focus, not on the severability provisions in
the arbitration agreement, but the objects of the contract.
(See Civ. Code, § 1599 [contract with “several distinct
objects” may be void as to an unlawful one and valid as to a
lawful one].) We disagree. As the trial court appropriately
recognized, “‘the rule relating to severability of partially
illegal contracts is that a contract is severable if the court
can, consistent with the intent of the parties, reasonably
relate the illegal consideration on one side to some specified
or determinable portion of the consideration on the other

42a
Appendix C
side.’” (Securitas, supra, 234 Cal.App.4th at p. 1126.)
Here, as we have discussed, the terms of the arbitration
agreement evince an intention to limit severability to
circumstances not present here. Following Securitas, we
conclude that the terms of the arbitration agreement—
which we must rigorously enforce—preclude severance.
(Id. at p. 1125; see also American Exp. Co v. Italian Colors
Restaurant (2013) 570 U.S. 228, 233, 133 S. Ct. 2304, 186
L. Ed. 2d 417 [“courts must ‘rigorously enforce’ arbitration
agreements according to their terms”].)
PennyMac argues Franco v. Arakelian Enterprises,
Inc. (2015) 234 Cal.App.4th 947, 184 Cal. Rptr. 3d 501
(Franco III), is controlling and compels severance. Franco
III, though factually similar, is distinguishable. There, the
plaintiff, a truck driver, filed an initial complaint alleging
a mix of PAGA and non-PAGA claims. (Id. at pp. 951952.) The defendant filed a petition to compel arbitration
pursuant to a “mutual arbitration policy” that appears to
have contained the same provisions as the MAP in our case.
(Id. at pp. 952-953.) The trial court granted the motion,
and the appellate court reversed, holding that the class
action waiver in the MAP was unenforceable. (Franco v.
Athens Disposal Co., Inc. (2009) 171 Cal.App.4th 1277,
1282, 90 Cal. Rptr. 3d 539 (Franco I).) Following an
unsuccessful petition for certiorari to the U.S. Supreme
Court, the matter returned to the trial court, where the
defendant filed a second petition to compel arbitration,
relying, again, on the MAP. (Franco III, supra, at p.
954.) The second petition to compel arbitration argued
that the authorities forming the basis for the appellate
court’s decision in Franco I had been overruled by the

43a
Appendix C
U.S. Supreme Court in Stolt-Nielsen S.A. v. Animal Feeds
International Corp. (2010) 559 U.S. 662, 130 S. Ct. 1758,
176 L. Ed. 2d 605 (Stolt-Nielsen), rendering the MAP
enforceable. (Franco III, supra, at p. 954.) The trial court
denied the petition, and the defendant appealed again,
arguing that Stolt-Nielsen and Concepcion overruled
Gentry, on which Franco I relied. (Id. at p. 955.) The
appellate court affirmed. (Ibid.) Our Supreme Court
granted review and remanded for reconsideration in light
of Iskanian. (Franco, III, supra, at p. 951.)
Following Iskanian, the Franco III court concluded,
“the MAP’s waivers of Franco’s right to pursue nonPAGA claims as a class representative are enforceable,
precluding the prosecution of those claims in any forum;
however Franco’s purported waiver of his right to
prosecute the statutory claims afforded by the PAGA
is unenforceable, and his PAGA claims are not subject
to arbitration.” (Franco III, supra, 234 Cal.App.4th at
p. 957.) The plaintiff asked the court to find the MAP
unenforceable on the ground of unconscionability. (Id. at
p. 965.) The court declined, reasoning that the central
purpose of the MAP was not tainted with illegality and
could not be said to have been drafted with an intention
to thwart the policy announced in Iskanian, which was
decided some 10 years after the MAP was implemented.
(Ibid. ) Franco III does not help PennyMac.
Although the Franco III court appears to have
considered the same MAP, the court does not appear to
have considered the arbitration agreement’s severability
provisions, as the plaintiff in that case does not

44a
Appendix C
appear to have relied on them. Instead, the plaintiff in
Franco III argued that the arbitration agreement was
unconscionable, an argument Smigelski does not advance.
(Franco III, supra, 234 Cal.App.4th at p. 965.) Though
Franco III may compel the conclusion that the MAP is not
unconscionable, that question is not before us. As the trial
court correctly recognized, Franco III does not address
the severability provisions in the arbitration agreement,
and cannot be viewed as controlling on the dispositive
question of severance. (Ulloa v. McMillin Real Estate
&Mortgage, Inc. (2007) 149 Cal.App4.th 333, 340 [“‘“It is
axiomatic that cases are not authority for propositions not
considered”’”].) Nothing in Franco III causes us to doubt
our conclusion that the severability provisions preclude
enforcement of the arbitration agreement as a whole. If
anything, Franco III supports our conclusion that the
arbitration agreement requires employees to waive their
PAGA claims, and therefore runs afoul of Iskanian.
(Franco III, supra, at p. 963.)
Doubling down on Franco III, PennyMac argues the
trial court ignored “controlling precedent” in refusing
to compel arbitration of Smigelksi’s non-PAGA claims.
Again, Franco III is distinguishable. There, the appellate
court reversed the order denying the petition to compel
arbitration and remanded with directions to grant the
petition with respect to the plaintiff’s non-PAGA claims
and stay the PAGA claims. (Franco III, supra, 234 Cal.
App.4th at pp. 965-966.) That outcome was appropriate
because the arbitration agreement as a whole was found
to be enforceable. As we have discussed, that finding was
limited to a conclusion that the MAP is not unconscionable.
(Id. at p. 965.) Here, by contrast, we have concluded that

45a
Appendix C
the arbitration agreement as a whole is unenforceable
by virtue of the severability provisions. Because the
arbitration agreement has been found to be unenforceable,
PennyMac cannot compel arbitration of any of Smigelski’s
causes of action, including causes of action that would
otherwise be arbitrable. That PennyMac must now litigate
non-PAGA causes of action is the result, not of the trial
court’s error, but its own drafting decisions.
F. The Arbitration Agreement Does Not Delegate
Questions of Arbitrability to the Arbitrator
Next, PennyMac argues the trial court erred in
adjudicating the arbitrability of the parties’ dispute
because the arbitration agreement delegates such
determinations to the arbitrator. We are not persuaded.
At the outset, we reiterate that a PAGA case “is not a
dispute between an employer and an employee arising out
of their contractual relationship. It is a dispute between
an employer and the state.” (Iskanian, supra, 59 Cal.4th
at p. 386.) Unlike a usual employment case, “the state
is the real party in interest.” (Id. at p. 387.) As a result,
the fact that Smigelski may have agreed to delegate
questions of arbitrability to an arbitrator is irrelevant.
(See Betancourt, supra, 9 Cal.App.5th at p. 448 [“The fact
that Betancourt, in 2006, agreed to arbitrate his private
employment disputes with Prudential is not relevant.
Betancourt’s lawsuit is a PAGA claim, on behalf of the
state. The state is not bound by Betancourt’s predispute
arbitration agreement”].) It is therefore unnecessary
for us determine whether the parties agreed to delegate
questions of arbitrability to the arbitrator.

46a
Appendix C
But even if we perceived a need to consider PennyMac’s
argument, we would reject it. “[C]ourts presume that
the parties intend courts, not arbitrators, to decide
. . . disputes about ‘arbitrablity[,]’ . . . such as ‘whether
the parties are bound by a given arbitration clause,’ or
‘whether an arbitration clause in a concededly binding
contract applies to a particular type of controversy.’” (BG
Group, PLC v. Republic of Argentina (2014) 572 U.S. 25,
34, 134 S. Ct. 1198, 188 L. Ed. 2d 220, quoting Howsam v.
Dean Witter Reynolds, Inc. (2002) 537 U.S. 79, 84, 123 S.
Ct. 588, 154 L. Ed. 2d 491.) However, “parties can agree
to arbitrate ‘gateway’ questions of ‘arbitrability,’ such as
whether the parties have agreed to arbitrate or whether
their agreement covers a particular controversy.” (Rent-ACenter, West, Inc. v. Jackson (2010) 561 U.S. 63, 68-69, 130
S. Ct. 2772, 177 L. Ed. 2d 403.) “Just as the arbitrability of
the merits of a dispute depends upon whether the parties
agreed to arbitrate that dispute, . . . so the question ‘who
has the primary power to decide arbitrability’ turns upon
what the parties agreed about that matter.” (First Options
of Chicago, Inc. v. Kaplan (1995) 514 U.S. 938, 943, 115 S.
Ct. 1920, 131 L. Ed. 2d 985.) “Although threshold questions
of arbitrability are ordinarily for courts to decide in the
first instance under the FAA [citation], the ‘[p]arties to
an arbitration agreement may agree to delegate to the
arbitrator, instead of a court, questions regarding the
enforceability of the agreement.’” (Pinela v. Neiman
Marcus Group (2015) 238 Cal.App.4th 227, 239, 190 Cal.
Rptr. 3d 159.)
“There are two prerequisites for a delegation clause
to be effective. First, the language of the clause must be
clear and unmistakable. [Citation.] Second, the delegation

47a
Appendix C
must not be revocable under state contract defenses
such as fraud, duress, or unconscionability.” (Tiri v.
Lucky Chances, Inc. (2014) 226 Cal.App.4th 231, 242, 171
Cal. Rptr. 3d 621; see also Rent-A-Center, West, Inc. v.
Jackson, supra, 561 U.S. at pp. 68, 69, fn. 1.) The “clear
and unmistakable” test reflects a “heightened standard
of proof” that reverses the typical presumption in favor
of the arbitration of disputes. (Ajamian, supra, 203 Cal.
App.4th at p. 787.)
Here, the arbitration agreement incorporates the
AAA Employment Rules, which provide, in pertinent
part, “The arbitrator shall have the power to rule on his
or her own jurisdiction, including any objections with
respect to the existence, scope or validity of the arbitration
agreement.” PennyMac argues the incorporation of
the AAA Employment Rules demonstrates the parties
intended to submit questions of arbitrability to the
arbitrator. Different courts have reached different
conclusions as to whether the incorporation of arbitral
rules serves as clear and unmistakable evidence of
an intent to delegate questions of arbitrability to an
arbitrator. (See, e.g., Greenspan v. LADT, LLC (2010)
185 Cal.App.4th 1413, 1442, 111 Cal. Rptr. 3d 468 [in
a commercial dispute between a trust and affiliated
companies, an arbitration agreement incorporating
JAMS rules constituted clear and convincing evidence of
the parties’ intent to delegate power to the arbitrator to
decide gateway issues of arbitrability]; Dream Theater,
Inc. v. Dream Theater (2004) 124 Cal.App.4th 547, 557,
21 Cal. Rptr. 3d 322 [in a contract dispute, arbitration
agreement incorporating AAA Commercial Arbitration
Rules constituted “clear and unmistakable evidence of the

48a
Appendix C
intent that the arbitrator will decide whether a Contested
Claim is arbitrable”]; but see Ajamian, supra, 203 Cal.
App.4th at p. 790 [expressing doubts as to whether mere
reference to AAA Employment Rules constitutes clear
and unmistakable evidence of intent in the employment
context].) We need not resolve this difference of opinion,
as the arbitration agreement indicates that questions of
arbitrability may be decided by the arbitrator or a court.
As noted, the MAP provides, “the Arbitrator or a
court may sever any part of the MAP procedures that do
not comport with the [FAA].” (Italics added.) Faced with
this language, the trial court concluded—and we agree—
that the arbitration agreement reflects an intent that “the
[c]ourt itself may decide questions of arbitrability, or at
a minimum[,] create ambiguity on that point.” We would
therefore reject PennyMac’s arbitrability argument, were
we to address it.
G. The FAA Does Not Preempt State Law Rules
Applicable To PAGA Claims
Finally, PennyMac argues the FAA requires us to
enforce the parties’ purported agreement to arbitrate
PAGA claims. We assume for the sake of argument
that PennyMac has carried its burden of establishing
the existence of such an agreement. Even so assuming,
PennyMac’s argument lacks merit.
As previously discussed, the Iskanian court held
that the state law rule against PAGA waivers does not
frustrate the objectives of the FAA because “the FAA
aims to ensure an efficient forum for the resolution of

49a
Appendix C
private disputes, whereas a PAGA action is a dispute
between an employer and the state Agency.” (Iskanian,
supra, 59 Cal.4th at p. 384, emphasis omitted.) “Read
in its entirety, the Iskanian opinion clearly holds that
the state is the real party in interest in a PAGA claim
regardless of whether the claim is brought in an individual
or representative capacity. . . . For this reason, the FAA,
which is primarily concerned with private disputes, does
not preempt the state law bar against a private predispute
waiver of a PAGA claim.” (Tanguilig, supra, 5 Cal.App.5th
at p. 680; see also Franco III, supra, 234 Cal.App.4th
at p. 964 [“the FAA does not preempt California’s state
law rule precluding predispute waivers of enforcement
rights under the PAGA”].) Applying these authorities,
we conclude that PennyMac’s preemption argument, like
much of its appeal, is foreclosed by Iskanian.
III. DISPOSITION
The orders denying PennyMac’s petitions to compel
arbitration are affirmed. Smigelski is awarded his costs
on appeal. (Cal. Rules of Court, rule 8.278(a)(1) & (2).)
/s/ 				
RENNER, J.
We concur:
/s/ 				
HULL, Acting P. J.
/s/ 				
ROBIE, J.

